<html>
<title> - AZERBAIJAN'S PERSECUTION OF RFE/RL REPORTER KHADIJA ISMAYILOVA</title>
<body><pre>[Joint House and Senate Hearing, 114 Congress]
[From the U.S. Government Publishing Office]







                   AZERBAIJAN'S PERSECUTION OF RFE/RL
                      REPORTER KHADIJA ISMAYILOVA

=======================================================================

                                HEARING

                               before the

            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 16, 2015

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                             [CSCE 114-1-7]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                   Available via http://www.csce.gov
                                    _______

                        U.S. GOVERNMENT PUBLISHING OFFICE 

98-127 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001




















            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               HOUSE

                                                   SENATE

CHRISTOPHER H. SMITH, New Jersey,     ROGER F. WICKER, Mississippi,
Chairman                              Co-Chairman
ALCEE L. HASTINGS, Florida            BENJAMIN L. CARDIN, Maryland
ROBERT B. ADERHOLT, Alabama           JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas             RICHARD BURR, North Carolina
STEVE COHEN, Tennessee                JEANNE SHAHEEN, New Hampshire
ALAN GRAYSON, Florida                 TOM UDALL, New Mexico
RANDY HULTGREN, Illinois              SHELDON WHITEHOUSE, Rhode Island
LOUISE McINTOSH SLAUGHTER, 
New York                      

                     EXECUTIVE BRANCH COMMISSIONERS

                      Vacant, Department of State
                     Vacant, Department of Commerce
                     Vacant, Department of Defense

                                  [ii]












                   AZERBAIJAN'S PERSECUTION OF RFE/RL
                      REPORTER KHADIJA ISMAYILOVA

                              ----------                               
December 16, 2015

                             COMMISSIONERS

                                                                   Page
Hon. Christopher H. Smith, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1
Hon. Benjamin L. Cardin, Ranking Member, Commission on Security 
  and Cooperation in Europe......................................     3
Hon. Robert B. Aderholt, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    13
Hon. John Boozman, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    14

                               WITNESSES

Nenad Pejic, Vice President/Editor-in-Chief of Programming, RFE/
  RL.............................................................     5
Delphine Halgand, U.S. Director, Reporters Without Borders.......     7
T. Kumar, International Advocacy Director, Amnesty International 
  USA............................................................     9
Shelly Heald Han, Policy Adviser, Commission on Security and 
  Cooperation in Europe..........................................    12

                               APPENDICES

Prepared statement of Hon. Christopher H. Smith..................    22
Prepared statement of Hon. Benjamin L. Cardin....................    24
Prepared statement of Nenad Pejic................................    25
Prepared statement of Delphine Halgand...........................    28
Prepared statement of Shelly Heald Han...........................    31

                   MATERIAL SUBMITTED FOR THE RECORD

Prepared statement and articles submitted by Khadija Ismayilova..    34
Letter from RFE/RL to the Azeri Prosecutor General...............    47
Letter from Dunja Mijatovic to Chairman Smith and Co-Chairman 
  Wicker.........................................................    56

                                 [iii]

 
                   AZERBAIJAN'S PERSECUTION OF RFE/RL
                      REPORTER KHADIJA ISMAYILOVA

                              ----------                              


                           December 16, 2015

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 2 p.m. in room 2200, Rayburn House 
Office Building, Washington, DC, Hon. Christopher H. Smith, 
Chairman, Commission on Security and Cooperation in Europe, 
presiding.
    Commissioners present: Hon. Christopher H. Smith, Chairman, 
Commission on Security and Cooperation in Europe; Hon. Benjamin 
L. Cardin, Ranking Member, Commission on Security and 
Cooperation in Europe; Hon. Robert B. Aderholt, Commissioner, 
Commission on Security and Cooperation in Europe; Hon. John 
Boozman, Commissioner, Commission on Security and Cooperation 
in Europe; and Hon. Randy Hultgren, Commissioner, Commission on 
Security and Cooperation in Europe.
    Witnesses present:  Nenad Pejic, Vice President/Editor-in-
Chief of Programming, RFE/RL; Delphine Halgand, U.S. Director, 
Reporters Without Borders; T. Kumar, International Advocacy 
Director, Amnesty International USA; and Shelly Han, Policy 
Adviser, Commission on Security and Cooperation in Europe.

HON. CHRISTOPHER H. SMITH, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Smith. [Sounds gavel.] The Commission will come to 
order, and good afternoon to everybody. I want to thank you all 
for being here today to discuss the terrible plight of 
political prisoners in Azerbaijan, and in particular the 
imprisonment of journalist Khadija Ismayilova.
    Khadija has done some very hard-hitting investigative 
reports on corruption at the highest levels in Azerbaijan. 
Khadija's reporting hit its mark, and the security services in 
Azerbaijan tried to intimidate Khadija from future reporting. 
They tried to blackmail her with compromising information. They 
threatened her with arrest. And she was always under watch. But 
Khadija stood firm and stayed focused on her important work. In 
December of 2014, however, she was arrested, and is now paying 
the price for her exemplary journalism with the loss of her 
freedom.
    The government convicted her on spurious charges of 
embezzlement, illegal entrepreneurship, tax evasion, and abuse 
of power. She is now serving a seven-and-a-half-year sentence 
in a women's prison in Baku.
    Much of Khadija's reporting was done as a journalist for 
the U.S.-funded Radio Free Europe/Radio Liberty. This means 
that the U.S. Government has a special obligation to do 
everything it can to secure Khadija's release. That means our 
government must take every opportunity, must leave no stone 
unturned, in the effort to secure her release. The State 
Department must make Khadija's release a true diplomatic 
priority, not a talking point on page two of issue briefers.
    One of the questions we will pursue today is whether or 
not, and to what extent our witnesses believe our government is 
doing just that. At this point, I would say we did invite the 
State Department to present testimony today. Unfortunately, the 
appropriate witnesses are on official travel this week, so we 
will circle back and meet with them in the very near future.
    Human rights organizations have documented Azerbaijan's 
crackdown on civil society over the last three years. Just 
yesterday the Committee to Protect Journalists released its 
annual report, and in the report they find that Azerbaijan now 
leads all of the countries in Eurasia in jailing journalists.
    In 2015, Azerbaijan jailed eight journalists. Today we are 
focused on Khadija's case, but there are dozens of other 
political prisoners, including journalists, sitting in a jail 
cell in Azerbaijan.
    Judicial processes against political prisoners are often 
farcical. In Khadija's case, the prosecutors charged her 
initially with, quote, ``incitement to suicide.'' Their case 
completely collapsed when their witness retracted. The 
prosecutor also charged that she had illegally signed service 
agreements with Radio Free Europe/Radio Liberty employees. The 
prosecution never produced any of the 11 agreements they said 
she had signed, and the four witnesses called to testify for 
the government's case denied that they had signed such 
agreements with Khadija.
    Today is the one-year anniversary of Anar Mammadli's 
sentencing. Anar is the courageous head of EMDS, the leading 
election monitoring organization in Azerbaijan. He spoke the 
truth about the fraudulent 2016 presidential election and is 
still paying the price. I met with Anar's father, a very gentle 
man, just a few months after Anar was arrested. And so many in 
his family are truly suffering from his incarceration.
    I'd like to mention just a few of the political prisoners--
and unfortunately, as I said, there are many.
    Ilgar Mammadov. This opposition politician was severely 
beaten in jail on October 16th. Despite winning a European 
Court of Human Rights case that said his prosecution was 
politically motivated, the government of Azerbaijan will not 
set him free.
    Intigam Aliyev. This leading human rights lawyer is now 
serving a seven-and-a-half-year prison sentence for his work 
seeking justice for political prisoners.
    Rasul Jafarov. This human rights activist is serving six-
and-a-half years because the government would not register his 
NGO.
    There are many, many more, including those who have 
peacefully practiced their religion. In total, the Norwegian 
Helsinki Commission estimates that there are 80 political 
prisoners in Azerbaijan.
    Over the years, the human rights situation has seriously 
deteriorated in Azerbaijan, causing damage to its relations 
with the United States and other countries, and damaged its own 
society by imprisoning or exiling some of the best and the 
bravest and the brightest of that country. The time has come to 
send a clear message.
    Today, the Council of Europe is sending the same message to 
Azerbaijan. The secretary-general announced that he is 
investigating the human rights situation in Azerbaijan to 
determine whether or not Azerbaijan is meeting their Council of 
Europe commitments. This is a very rare step for the Council of 
Europe, and it's the first time that this secretary-general has 
launched this type of inquiry.
    A few weeks ago, Azerbaijan gave medical parole to two of 
its most prominent political prisoners, Leyla and Arif Yunus. 
We should all welcome their release, even though it's just a 
first step. They are still under house arrest, and we have not 
seen such a step in other cases. I urge all of us to redouble 
our efforts to pass legislation, and I have introduced 
legislation called the Azerbaijan Democracy Act, a human rights 
act.
    And with that, I would like to yield to my good friend and 
colleague, Ben Cardin, the Ranking Member, and to thank him for 
coming over from the Senate side.

HON. BENJAMIN L. CARDIN, RANKING MEMBER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Cardin. Well, thank you, Mr. Chairman.
    First, I thank you for calling this hearing on Azerbaijan. 
As you will recall, we had our annual meeting of the 
Parliamentary Assembly there recently, and we used that 
opportunity to raise these issues.
    The retrenchment in Azerbaijan is extremely concerning, and 
I thank you for calling this hearing so we can focus on one 
individual primarily. Because we have found in the Helsinki 
Commission, when you put a face on the issue, we can make 
progress. We've done that when with Sergei Magnitsky's tragic 
circumstance, we caused the world to react to Russia's human-
rights violations.
    And I think the tragedy that is taking place today in 
Azerbaijan--and we can mention so many of the individual cases. 
You mentioned the Yunuses, which has a connection to my State 
of Maryland. I know some family is here. That circumstance was 
outrageous, just outrageous--continues to be outrageous. So we 
need to put a face on the issue.
    And clearly the persecution of Khadija is a clear example 
of the backtracking of Azerbaijan and something that we cannot 
allow to continue, the closure of Radio Free Europe/Radio 
Liberty. What is clearly happening is Azerbaijan is trying to 
cut off information. We know Khadija was a reporter, a 
journalist, and trying to do her job to root out corruption.
    On November 19th of 2014, I chaired an Helsinki Commission 
hearing, and it was focused on the role of journalism in 
combating corruption. We invited Khadija to join us. The 
overall theme was corruption in the OSCE region. We invited 
her, expected her, that she would be able to testify. Shortly 
thereafter, she was denied the opportunity to leave Azerbaijan. 
And then, a few weeks later, she was jailed. And we know the 
rest.
    So I'm going to ask consent that her testimony that was 
submitted at that hearing be included in this hearing. And I do 
that because I think it's relevant, very relevant to today's 
hearing.
    I'm going to quote one paragraph from that letter: 
``Azerbaijan is part of the Extractive Industry Transparency 
Initiative since 2004. As in many other global initiatives, the 
Azerbaijani Government uses the membership as an argument 
against criticisms of corruption. The country is currently 
under scrutiny by EITI, as one of the main parts of the 
Initiative's civil society is paralyzed and cannot serve as a 
watchdog. In non-oil extractive industries, government-linked 
monopolies have a huge stake. In 2007, the Government of 
Azerbaijan signed a contract to develop six gold and copper 
mines with a consortium that is co-owned by the president's 
daughters.''
    Clearly, we miss having her reporting in Azerbaijan so that 
we could have more transparency into what's happening in the 
country and to fight corruption in Azerbaijan.
    The situation for civil society in Azerbaijan has only 
deteriorated further since her arrest. Azerbaijan's new 
regulations on NGO registration, and specifically NGOs' ability 
to receive funding from outside sources, are so restricted that 
almost all of the independent NGOs that have been working in 
Azerbaijan's multilateral stakeholder group for EITI can no 
longer operate. I don't see how Azerbaijan can maintain its 
status as a compliant country under these circumstances, 
something that we should be pushing hard for. We need to see 
much greater space for independent NGOs and journalists to 
operate for the EITI process to achieve its true value.
    Democratic societies function best when there is a high 
level of trust in each other and the institutions that underpin 
democracies. Corruption undermines that trust, and thus 
undermines the very foundation of democracy. Corruption has 
corrosive and cumulative effects on society. Whenever 
corruption rears its head--and every country is vulnerable--we 
must use all of our tools to combat that scourge. A vibrant 
civil society and a free press is essential to that effort.
    So, Mr. Chairman, combating corruption may be the most 
important task that we face today. Unfortunately, Azerbaijan 
has taken one of our great anticorruption warriors off the 
field of battle. We need to work to bring her back.
    Mr. Smith. Thank you very much, Ranking Member Cardin.
    Randy Hultgren, Commissioner.
    Mr. Hultgren. I don't have a statement at this time.
    Mr. Smith. OK, thank you.
    Mr. Cardin. Mr. Chairman, I'm going to apologize to our 
witnesses--the Senate Foreign Relations Committee, where I'm 
Ranking Member, has a hearing scheduled at 2:30 today that I 
must be at when it starts. So I apologize for not being able to 
stay for the witnesses. My staff is here. I look forward to 
your testimony.
    Mr. Smith. Thank you, Ben. And thank you for your very 
eloquent statement.
    I'd like to now introduce our witnesses. And without 
objection, your full bios will be made a part of the record.
    But very briefly, we'll begin with Mr. Nenad Pejic, who is 
the vice president and editor-in-chief of programming at RFE/
RL. Mr. Pejic was named vice president and acting chief 
executive by the Board of Directors on August 31st, 2015, and 
became editor-in-chief of programming in December of 2013. Mr. 
Pejic joined RFE/RL in 1993, when he was named the first 
director of the Balkan Service. Prior to joining the radios, 
Mr. Pejic held various positions with Sarajevo television, 
including head of the news department in Belgrade, 
correspondent, and program director.
    We'll then hear from Ms. Delphine Halgand, who is the U.S. 
director of Reporters Without Borders, a position she has held 
since 2011. She runs U.S. activities for the organization and 
advocates for journalists, bloggers, and media rights 
worldwide. Acting as Reporters Without Borders spokesperson in 
the United States, she regularly appears on American and 
foreign media, and lectures at conferences in U.S. universities 
on press freedom violation issues.
    We'll then hear from Mr. T. Kumar, who is the international 
advocacy director at Amnesty International USA. Mr. Kumar has 
served as a human rights monitor around the world and was a 
director of several refugee camps and refugee ships. He also 
served as a consultant to the Quaker United Nations Office and 
was a professor in Washington College of Law. He has monitored 
several elections around the world with President Carter and 
the Organization for Security and Cooperation in Europe. He's 
also served as a judge of elections in Philadelphia. And I 
would note he was also a political prisoner for approximately 
five years in Sri Lanka. And Amnesty advocated for him, and now 
he is an advocate for others who are similarly situated.
    We'll then hear from Ms. Shelly Han, who is policy adviser 
at the Helsinki Commission and was there with Khadija in the 
actual courtroom during her sham trial. Shelly joined the 
Commission in 2006 as a policy adviser for economics, 
environment, technology and trade. She has also previously 
served as the chief of staff at Immigration and Customs 
Enforcement, or ICE. And before joining DHS, she was a senior 
international policy adviser at the Department of Commerce, 
working on sanctions policies and international security policy 
related to the export of sensitive goods and technology.
    I'd like to now yield to Mr. Pejic.

  NENAD PEJIC, VICE PRESIDENT/EDITOR-IN-CHIEF OF PROGRAMMING, 
                             RFE/RL

    Mr. Pejic. Thank you, Chairman Smith.
    First of all, thank you for the opportunity to speak with 
you today. And of course, in the interest of time, I'll 
highlight just a few points from my written testimony, which 
you received yesterday.
    Khadija Ismayilova is an internationally recognized 
investigative journalist and prominent contributor to Radio 
Free Europe/Radio Liberty Azeri Service. The Government of 
Azerbaijan began harassing Khadija in 2012, when she started 
publishing investigative reports that, among other things, 
documented extensive real estate holdings in Dubai belonging to 
President Aliyev's son, his daughter's control of major stakes 
in the country's telecom and airline industries, and the ruling 
family's ownership of extensive national resources, including 
gold mines. We believe that it is her reporting, actually, on 
the Aliyev family that brought her to arrest and the closure of 
our Baku Bureau.
    The charges against Khadija relate directly to the work of 
Radio Free Liberty Baku Bureau, of course, during the period 
she was our Baku Bureau chief, and they are all false. RFE/RL 
submitted detailed refutation to the general prosecutor of 
Azerbaijan on August 18, 2015. We received no reply.
    Khadija's trial was a sham. The proceedings were not 
transparent. Journalists, international observers, and members 
of her family were banned from the courtroom. No motions or 
letters supporting Khadija were accepted into evidence during 
the trial, including our letter refuting the charges against 
her, which I mentioned above.
    During the trial, the prosecutor declared that testimony in 
her favor would create bias, and would therefore not be 
introduced. Not one witness testified against Khadija, and yet 
she was convicted and now she sits in prison. According to 
Khadija, when tax inspectors were questioned in court, they 
admitted that not a single document they saw had her signature 
on it. They also said they saw only documents shown to them by 
the prosecution, meaning no other documents--from us, for 
instance.
    On December 26th, 2014, RFE Baku Bureau was raided by the 
police and investigators from the general prosecutor's office. 
Authorities seized our property and still have not returned it. 
RFE/RL's bank accounts were frozen. Our longtime lawyer was 
barred from the case. Twenty-six members of our staff were 
interrogated by the general prosecutor's office over the next 
several days. Some of them were literally dragged from their 
houses during the night, and most of them did not have legal 
representation. In April, their bank accounts were frozen.
    The details of the charges against us were vague. The 
investigators have missed deadline after deadline for 
submitting their findings. Each time the next deadline arrives, 
they apply for and are granted another extension. The reason is 
obvious: they haven't found evidence of any wrongdoing by Radio 
Free Europe/Radio Liberty. In fact, some of the investigators 
have privately conceded to our lawyer that RFE/RL has not 
violated any laws, and that they are just pursuing the 
investigation because they have been ordered to. The 
investigation is just a pretense used to prevent RFE/RL from 
broadcasting. If charges are ever brought against Radio Free 
Europe/Radio Liberty, we will disprove them in the court. The 
next deadline for the investigators to present their findings 
is December 30th, 2015.
    After the raid on our Baku Bureau, several members of our 
staff fled Azerbaijan and have applied for asylum abroad. Many 
others have stopped reporting and remain unemployed. Our former 
bureau chief, Babek Bakirov, remains under a travel ban and 
cannot leave the country.
    And yet, the bureau might be closed, but the journalists 
continue their work. Thirty percent more people visited, for 
example, the Azerbaijani Service website last month than in 
December 2014. The last month, it was the last month when the 
bureau operated in Azerbaijan. Despite the efforts of the 
government to deny our journalists the ability to report the 
news in and from Azerbaijan, our freelancers continue to cover 
protests in Baku live for RFE/RL.
    Today's hearing, I believe, is another evidence of the 
prominence of the Azeri Service, the importance of the 
journalism, and public awareness that the charges against 
Khadija are groundless. I am honored to be editor-in-chief and 
to be boss of this group of people. And I am honored by the 
courage and professionalism demonstrated by Azeri Service and 
its Baku Bureau.
    Of course, our bureau remains closed. RFE/RL Azeri Service 
has continued to work from our headquarters in Prague. But 
Khadija is in prison, her crime being nothing more than doing 
her job as a journalist.
    To ensure that her work continues, Radio Free Europe/Radio 
Liberty has partnered with Sarajevo-based Organized Crime and 
Corruption Reporting Project to launch a fellowship in her 
name. Our aim is to encourage more investigative journalism and 
to ensure that intimidation doesn't win.
    With this testimony, I am very proud and proudly join 
international appeal for Khadija's immediate release. Thank 
you.
    Mr. Smith. Mr. Pejic, thank you very much for your very 
strong statement and rebuttal, and pointing out that the 
charges are groundless.
    We will have to take a very short break--there are three 
votes on the floor of the House. We have a minute to go on the 
first one, so I will run out. But we'll stand in recess for 
about 15 minutes. Thank you. [Sounds gavel.]

    [Recess.]

    Mr. Smith. The Commission will resume its sitting.
    First of all, let me just welcome Dr. Boozman, a Member of 
the United States Senate and commissioner. Dr. Boozman, any 
comments at this point?
    Dr. Boozman. No, just we, as always, appreciate your 
leadership. And I had the opportunity to serve with Chairman 
Smith for many years in the House of Representatives on Foreign 
Affairs and Veterans Affairs, and nobody works harder, you 
know, in the effort to help those that need help. So we just 
appreciate your leadership very, very much.
    Mr. Smith. Thank you. And thank you for all your 
humanitarian work over on the Senate side. It's tremendous.
    I'd like to now invite Ms. Halgand to provide her 
testimony.

   DELPHINE HALGAND, U.S. DIRECTOR, REPORTERS WITHOUT BORDERS

    Ms. Halgand. Representative Smith, Members of the 
Commission, thank you for convening this very timely and 
important hearing. Thank you for inviting me to testify today. 
By your invitation, you honor the work Reporters Without 
Borders, Reporters Sans Frontieres, has done since 1985 to 
defend journalists and freedom of information all over the 
world.
    Azerbaijan is ranked 162nd out of 180 countries in the 2015 
Reporters Without Borders World Press Freedom Index. It means 
that Azerbaijan is ranked lower than Egypt or Pakistan.
    In my remarks this afternoon, I will focus on three aspects 
of Azerbaijan crackdown on journalists and press freedom: 
suppression of media pluralism, imprisonment of critical 
journalists--like Khadija Ismayilova of course--and the 
violence towards journalists.
    President Ilham Aliyev has suppressed all media pluralism 
in Azerbaijan. He has orchestrated an unprecedented crackdown 
on the remaining critics for the past two years. The media 
regulation authority and manipulation of the advertising market 
have brought broadcast media under control. Corruption, 
blackmail and intimidation have systematically been used to 
chase journalists away from independent reporting.
    I would like just to highlight a few examples. The Baku 
Bureau of Radio Free Europe/Radio Liberty was forcibly closed 
down after the police raid last December. The independent 
newspaper Zerkalo was financially strangled and closed down 
earlier this year. The main opposition newspaper, Azadliq, is 
on the verge of collapse due to astronomical fines.
    So after successfully suppressing media pluralism at home, 
the Azerbaijani authorities have waged a war against foreign-
based independent media created by prominent Azerbaijani 
journalists now in exile. The authority seems to be stopping at 
nothing in their determination to persecute independent 
journalists.
    By example, Ganimat Zahid is the well-known editor of the 
opposition newspaper Azadliq. Ganimat fled to France in 2011 
and has lived there ever since. Instead of being satisfied with 
forcing Zahid to flee the country, actually the authorities are 
now hunting members of his family who are still in Azerbaijan, 
like his 87-year-old mother, but also his nephew, his cousin, 
and so on.
    Another worrying example of the Azerbaijan Government 
harassment of independent media in exile is Meydan TV, a 
Berlin-based online TV station and news website run by Emin 
Milli, an Azerbaijan journalist now living in Germany. So Milli 
fled to Germany in 2012 after 18 months of arbitrary 
imprisonment, and recently he has given an interview to the 
international media about the corruption surrounding the Baku 
European Games, and actually the Azerbaijan authority was 
enraged by the failure of their European Games media plan to 
conceal their massive human rights violation.
    In addition, I want to highlight that all media support and 
press freedom NGOs were forcibly closed down in 2014. Among 
them, the most prominent one, the Institute for Reporters' 
Freedom and Safety, IRFS, which was actually a Reporters 
Without Borders local partner organization. Just to make you 
understand the violence of this attack, the chairman of this 
press freedom organization had to hide almost one year in the 
Swiss embassy before an agreement was made to let him leave the 
country, and he's now living in exile in Switzerland. His name 
is Emin Huseynov.
    So independent journalists in Azerbaijan are left with the 
choice between arrest, exile, or silence.
    Twelve journalists and bloggers are currently detained in 
connection with their work in Azerbaijan. The most famous of 
them is Khadija Ismayilova. As Nenad explained it to us 
earlier, she is a leading investigative reporter, and her 
arrest was a political case from the outset. She's in prison 
because of her journalistic work and her human rights activism.
    I would like to highlight another case, the case of Rauf 
Mirgadirov. His trial began behind closed doors on November 
4th. And actually, the prosecutor requested today a seven-year 
jail sentence for high treason, and his next hearing is 
scheduled for December 23rd. He might end up in jail for seven 
years as well.
    We cannot forget the other journalists: Nijat Aliyev, 
imprisoned since May 2012; Hilal Mamedov, since June 2012; Araz 
Guliyev, since September 2012; Tofiq Yaqublu, since February 
2013; Shaig Agayev, since February 2013; Rashad Ramazanov, 
since May 2013; Abdul Abilov, since November 2013; Parviz 
Hashimli, since September 2013; Omar Mamedov, since January 
2014; and Seymour Khazi, since August 2014.
    Arrests most of the time take the form of a kidnapping by 
plainclothes officer. Journalists are arrested under trumped-up 
charges such as drug trafficking or hooliganism, and trials are 
held in camera. The courtrooms is often filled with paid state 
servants in order to not allow family members to attend. We 
bear witness to tragicomedies in Azerbaijan's courts with 
scripts written long ago by President Ilham Aliyev.
    I would like to finish by giving you a few examples of the 
violence and physical violence targeting journalists in 
Azerbaijan.
    Journalists are regularly threatened and even violently 
attacked. The freelance journalist Rasim Aliyev died on August 
9 of this year in a Baku hospital from the injuries he received 
when he was lured into an ambush and beaten. Rasim Aliyev is 
the fourth journalist to be murdered in the past 10 years in 
Azerbaijan. The investigation into the death of Elmar Huseynov 
and Alim Kazimli in 2005, and Rafiq Tagi in 2011, have yet to 
yield any credible results. Impunity for violence against 
journalists is systematic in Azerbaijan.
    So Reporters Without Borders would urge the Commission, the 
Obama administration, and Members of Congress to raise the 
issue of restriction on freedom of the press in meetings with 
senior Azerbaijani officials, to demand the immediate release 
of all Azerbaijani journalists, to put an end to these trumped-
up prosecutions, to abandon the practice of collective 
punishment, and to investigate the murders of journalists. 
Azerbaijan independent media need your support, and sanction 
and visa denials should be considered.
    And I'm glad to discover the Azerbaijan Democracy Act, and 
Reporters Without Borders definitely supports this Act, and 
will help to make it a reality. The United States must make 
clear to President Aliyev that it follows carefully the crimes 
committed against journalists, and that the United States won't 
accept such crimes.
    Thank you again for holding this hearing and for giving me 
the opportunity to contribute on behalf of Reporters Without 
Borders. Thank you.
    Mr. Smith. Thank you so very much for your testimony and 
your recommendations.
    I'd like to now yield the floor to Mr. Kumar.

      T. KUMAR, INTERNATIONAL ADVOCACY DIRECTOR, AMNESTY 
                       INTERNATIONAL USA

    Mr. Kumar. Thank you very much, Chairman Smith and other 
Members of Congress.
    Amnesty International is on one hand extremely pleased that 
you are organizing this hearing, on the other hand extremely 
worried by the developments in Azerbaijan. Azerbaijan stands 
out in that part of the world as an example of how to silence 
peaceful critics in a most effective and brutal manner.
    One example is the case that we are talking about, 
Khadija's case. We have been following this case and other 
cases, and one thing came very clearly to us: that any 
opposition--very peaceful, well-meaning opposition--will never 
be tolerated at any cost. They use every tactic under the sun 
to silence these people.
    Khadija's case is a textbook example to how to silence a 
critic in a very effective and very brutal manner. In her case, 
she was targeted not only for reporting and media work she was 
doing; she was also investigating the president's corruption. 
His family was involved in alleged corruption. So she was 
investigating that. So the government machinery, every level of 
government machinery, started to move against her. They 
harassed her. They blocked her from going overseas, a travel 
ban. All this harassment was going on. She didn't budge.
    Then--it could be intelligence officers; we don't know who 
did it--she was filmed in a very intimate manner in her own 
house, and that was used as blackmail tactics to silence her. 
She didn't--she said I can't--I will not stop. They threatened 
that they will make it public and she did not back off, so they 
put it online to humiliate her. Not only they humiliated her, 
they tried to humiliate her family as well. Even her own sister 
was called names. So it's an extended, collective punishment 
was there because of one individual who was trying to raise 
issues in a very, you know, internationally accepted norms of 
media freedom.
    They played race card. They used that she has some 
connection--her relatives or someone have some connection who 
is Armenian, so they play race card. It did not work.
    So blackmail using intimate pictures online did not work. 
Using race card did not work. Then they switched to using law 
as a weapon to silence her. First they tried to charge her, 
saying that someone tried to commit suicide because of her 
action. It did not go anywhere. Then they--suddenly they found 
that there is another way: let's charge her the same charge 
that she is going after the president, namely the fraud and 
corruption. So they went after her. Instead of, you know, she 
was going after the president, they went after her.
    So what says this? It says that the government machinery in 
every level--intelligence, military, police, judiciary, 
lawyers, everyone--is working in tandem, working in one tune to 
silence critical voices--peaceful critical voices in that 
country.
    Then they brought her to charge. They extended the 
detention just to harass her without giving any fair trial. 
Even when the trial started, her first charges failed, then 
they brought in the corruption charges. Then they went after 
the lawyers. Her one lawyer was forced to resign and other 
harassment was going on. So she did not have effective legal 
representation to represent her in the court.
    The other one is, during the trials, they specifically 
selected a very small courtroom so that outsiders can't be 
there to observe the trial. Even though it's a show trial, they 
didn't want anyone else. So what happened was there were only 
20 people who can sit in that courtroom; they filled the 
courtroom with plainclothes folks. She was in a white, you 
know, glass cage sitting in the middle, surrounded by all these 
plainclothes folks. Even diplomats, others could not able to 
get in. There were--intimidation were waiting outside. So 
eventually she was convicted.
    But one thing that--you know, we follow--Congressmen, you 
also know, you also follow a lot of cases. What amazes me in 
this case is her courage. Believe me, I was shocked by how 
strong she is, and she didn't budge. Even after putting her 
personal pictures online, she said go to hell, I'll do the 
work. That's what she stands out for.
    So now let's see what the U.S. Government can do. We 
comment on your actions, including the Act you are bringing in. 
One thing I have to commend you, Chairman, is before we ask, 
you act. Usually, for--[laughs]--sometimes we have to go and 
ask. You are actually one step ahead of us.
    But other recommendations is that--one is for the Congress, 
which is this Act, but also to the administration. For the 
Congress, we would strongly urge when Members of Congress visit 
Azerbaijan, CODELs, they should insist that they would like to 
visit her in prison. It's nothing unusual. You know, in Vietnam 
Father Ly, members of Congress have met. It's the will of the 
Members of Congress that matters. So if the Members of Congress 
can stand firm and say, here, 20 of us are coming, we want to 
see her in prison, that should be attempted. Let them say no. 
It should be attempted.
    For the trial, any political prisoner trial now--this case 
is over--it's the ambassador who should be there, not the 
political officer, because the situation is so bad in 
Azerbaijan the level of scrutiny should be the highest. So 
ambassador should take time and go and give--it's a political 
message.
    Third, the ambassador should frequently meet with political 
prisoner families. In this case, mother and sister are there.
    Then, when it comes to the administration--you know, every 
administration, no matter which administration, they are known 
for making statements and not following through. Oh, we are 
concerned. It's not going to go anywhere with Azerbaijan. The 
only way that can--they have to ratchet up a little bit. So we 
would urge President Obama to meet with the family members of 
Khadija. When her mother visits here or when her sister comes 
here, President Obama should meet. He has done it with other 
political prisoners. Not consistently; with China he never 
wanted to meet, but there are other cases he met. We would 
strongly recommend that Khadija's mother be--if a community 
bring her or someone bring her, President Obama should meet her 
as a symbolic gesture that U.S. Government will not stay silent 
when you harass and abuse your own citizens who are peacefully 
raising issues of concern.
    Thank you, Chairman, for inviting us.
    Mr. Smith. Mr. Kumar, thank you so very much for your 
defense and your recommendations.
    I'd like to now yield to Ms. Han.

 SHELLY HEALD HAN, POLICY ADVISER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Ms. Han. Thank you, Mr. Chairman, commissioners. As a staff 
member of the U.S. Helsinki Commission, I traveled to 
Azerbaijan in late October, and I met with government officials 
as well as the few remaining activists who were willing to meet 
with someone from the United States.
    The mood was subdued among the independent activists, as 
many of their colleagues were in jail. And they and often their 
family members were facing harassment from the government and 
were also under threat of arrest.
    But I cannot say that they were defeated. In fact, they 
were defiant in the face of the crackdown. And they're 
determined to continue to fight for human rights. And it's 
exactly the bravery and the incredible optimism that Khadija 
brings to this group and that she has shown during her trial 
and imprisonment that have played a big part in keeping the 
activists motivated. And Kumar mentioned that in his testimony.
    On the afternoon of October 29th, I attended one of 
Khadija's appeal hearings at a courtroom in Baku. And as Kumar 
mentioned, the courtroom was packed. It was full of even more 
attendees, and everybody was searching for a seat in this small 
courtroom on the crowded benches.
    And as we were taking our seats, there was a moment of 
confusion, and we were all told to move to a different 
courtroom. There was a mad scramble as we rushed into the new 
room, and you had to find a seat or else you had to leave, 
because you were not allowed to stand and watch the trial. 
Apparently this room-swapping technique is something that the 
court officials use so that nobody can have physical contact or 
be able to exchange words with Khadija as she's brought in to 
the prisoner glass cage.
    So I could feel the tension in the courtroom but also the 
resignation. It was as if we were at a theater and we all knew 
the grim ending of the play, but we held out hope that audience 
participation might somehow change the outcome. There was no 
doubt that Khadija would be found guilty. And it was not 
because of the preponderance of evidence against her, because 
in fact the evidence didn't support the charges at all. But it 
was because the whole trial was being held to fit the 
government's desired conclusion, a guilty verdict. And the 
court was now merely the stage on which to act it out.
    In reality, Khadija had already started serving her 
sentence on the day of her arrest. The only thing she did not 
know was how much longer that she would be in jail.
    Since the guilty verdict is assumed, the punishment starts 
before the trial begins. Essentially every single political 
prisoner in Azerbaijan has spent the entirety of their pretrial 
period in pretrial detention despite the availability of a bail 
system. Khadija spent almost exactly one year in pretrial 
detention, from her December 5th, 2014 arrest to her November 
25th final appeal.
    The conditions in pretrial detention are often harsher than 
in the regular prison system. Khadija was not given consistent 
or sufficient time with her lawyers to prepare her case. Her 
family was obliged to provide her with food, clothing and other 
basic necessities. Her family visits were restricted or denied. 
And communication with the outside was extremely limited. And 
Khadija was punished, often by being put in solitary 
confinement, for issuing statements or continuing to write 
letters from jail. One of her letters from jail was published 
in the Washington Post back in February of this year, and she 
was immediately punished for that.
    When we arrived in the second courtroom, Khadija was 
already in the glass-enclosed witness cage, where she spends 
the entirety of the hearing process. She cannot speak unless 
the microphone in the glass cage has been turned on. And in 
other hearings over the last year, the judge would cut off 
Khadija's mic if Khadija started saying something that the 
court didn't like.
    The court had another particularly cruel practice. As we 
filed into the courtroom, the tallest and most burly guards 
were standing shoulder to shoulder in front of the glass cage 
so that Khadija was not able to see or even wordlessly 
communicate with her elderly mother. So they were basically 
blocking her off from seeing her mother. So her mother was 
anxiously peering left and right around the guards, trying to 
catch a glimpse of her daughter; trying to find out did she 
look sick, was she in good spirits.
    So we took our seats, and Khadija pressed a piece of paper 
to the glass with a message to her mother, but the guards 
quickly told her to put it down.
    The judge filed in and read a short notice about the 
procedure of Khadija's appeal. And Khadija had one more month 
to file a certain petition, so the court would send her back to 
pretrial detention for that full month's time. The judge 
quickly turned and left.
    As we were hustled out of the courtroom, I too leaned 
around the guards, searching to make eye contact with Khadija. 
I saw her, and we exchanged a quick wave, a big smile and the 
universal peace sign. And with that, I was pushed out the door, 
leaving Khadija behind.
    Thank you.
    Mr. Smith. Thank you very much for your testimony and your 
work on Khadija's case.
    Vice President of the Parliamentary Assembly Robert 
Aderholt, and also of course a member of our Commission. I 
yield as much time as you may consume.

 HON. ROBERT B. ADERHOLT, COMMISSIONER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Aderholt. Oh, thank you. Mr. Chairman, thank you for 
this hearing today. And let me just say, having had a chance to 
visit Azerbaijan on a couple of different occasions, I'm 
familiar with the area, have got to know some of the officials 
there. And generally speaking, Azerbaijan has worked with the 
United States in many ways, and there has been a working 
relationship between our two countries. But certainly it's 
situations like this and hearing more details about Khadija's 
situation that--it's very disconcerting. And certainly I think 
it's important, Mr. Chairman, to have this hearing to learn 
more about it because, like I said, there is a real desire, I 
think, from the United States to be in friendship with 
Azerbaijan, and we want to work with them.
    But I think one of the things that's very difficult for 
most Americans is when they hear situations like this. It's 
very alarming. And I think that it's important that these 
things come to light and that we make sure there're no Khadijas 
out there that are being imprisoned.
    Let me just--and I have got to slip out to another meeting 
here in a few minutes, so, Reporters Without Borders, let me 
ask you this question. How many journalists would you say are 
currently in prison in Azerbaijan?
    Ms. Halgand. There are at least 12 journalists and bloggers 
currently in jail in Azerbaijan. And what is important to 
highlight, that most of them were imprisoned since 2012. So 
there has been a really harsh crackdown these last years.
    Mr. Aderholt. And you know, there seems to be a lot of 
newspapers there. Are there any independent voices out there in 
the media?
    Ms. Halgand. So what I tried to highlight was the fact that 
really President Aliyev has been quite successful to completely 
silence independent journalists at home but also the media in 
exile like Meydan TV or others, and by going after their family 
members who are still in Azerbaijan, by crushing the media 
financially and so on.
    Mr. Aderholt. Thank you. Like I said, I apologize. I'm 
going to have to leave shortly. But like I said, I think 
there's a real desire for the United States to have a good 
working relationship with Azerbaijan. But you know, this is--
certainly anytime you hear reports about this, the American 
people are--I can tell you from my constituency are--when they 
hear reports like this, it's very disconcerting.
    And so I think that's why it's important; we need to learn 
from this hearing. And again, thank you, Mr. Chairman, for 
hosting this today. And I yield back.
    Mr. Smith. Thank you, Mr. Aderholt.
    Dr. Boozman.

  HON. JOHN BOOZMAN, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Dr. Boozman. Let me just ask a couple questions in regard 
to the broadcasting. Are you able to continue broadcasting now?
    Mr. Pejic. We had an FM license in Azerbaijan, but we of 
course lost it several years ago. But even though we lost the 
FM license a long time ago, we were able to keep the bureau. We 
are now able to broadcast only via shortwave and through 
Internet.
    Dr. Boozman. OK. So do you have any idea of the size----
    Mr. Pejic. We do have some cooperation--sorry--with Turksat 
TV, trying to address Azerbaijan content in cooperation with 
Turksat TV.
    Dr. Boozman. Do you have any idea of the size of your 
audience?
    Mr. Pejic. Yes, I do. It depends what you want to compare 
it with. I think you were not here when I mentioned that today 
we have 30-percent larger audience on the Web compared to the 
time when we had bureau in Baku in December 2014. In November 
2014 we have 1,138,000 visits on the Web, plus YouTube, plus 
social network, et cetera. So this is increase compared to, 
let's say, May for about 15 [percent], 30 percent.
    Dr. Boozman. So what can we do? What can Congress, what can 
the State Department--how can we support you?
    Mr. Pejic. I think my colleague laid out pretty good ideas 
of what should be done. We--at some point with the support from 
the State Department went to Baku. And our representatives and 
the representative from the Broadcasting Board of Governors--we 
tried to find out kind of three issues there. Number one, was 
there any misreporting that was done about Khadija? Because we 
have no idea about any single fact that represented in a wrong 
way. Nobody has ever said anything like this.
    Point two, we wanted to find out, OK, what are the 
wrongdoings that RFE/RL office was done?
    And point three, of course, we wanted to try to solve the 
problem. We got no--negative answer on all these issues.
    Dr. Boozman. For the panel--with the issues you brought up, 
what has the United Nations done, the U.N.? Have they played a 
role?
    Mr. Kumar. They have. U.N. Human Rights Council--there was 
a joint statement issued about six months ago, and U.S. did not 
take the lead, but they were party to that. That issue is 
important, that U.S. can take a lead. Now U.S. is not a member, 
but still they can play a role in passing a resolution next 
time, because when bilateral initiatives are not working, it's 
always better to go to multilateral, not only U.N. but also 
OSCE. You know, the ambassador has been doing a good job. But 
again, that should be--that avenue should be explored.
    Dr. Boozman. So are they more responsive to the United 
States' intervention or more so to the United Nations?
    Mr. Kumar. U.S.--they will react, but U.S. is not 
intervening in a meaningful manner. Making statements--they 
know that everyone makes statements. That's what I said. They 
have to go one step further by--you know, CODELs visiting, they 
should try to meet with Khadija. And also, most importantly, 
President Obama--I strongly feel a strong message should be 
given by meeting the family members. That will give the message 
that U.S. is serious about it.
    They think U.S. is not serious. That's what's happening.
    Dr. Boozman. I see.
    Mr. Kumar. So the bilateral, but also at the same time 
multilateral, they should start with.
    Dr. Boozman. Very good.
    Thank you, Mr. Chairman.
    Mr. Smith. Thank you very much, Dr. Boozman.
    What is a typical day like for Khadija? You mentioned that 
she's been in solitary confinement. How is she faring? Because 
obviously there's a corrosive effect. Every day that goes by, 
you know, life in a political jail becomes that much harder. 
And you would know it personally, Mr. Kumar.
    Mr. Kumar. I will say they are trying to break her.
    Mr. Smith. Trying to break her.
    Mr. Kumar. But I will admit I don't know about her, but 
given her background, especially when they threatened exposing 
her personal--when she said she doesn't care, I think she's a 
very strong lady.
    So I don't know, but you may be able to----
    Ms. Han. I don't know if Mr. Pejic wants to chime in, but I 
think that Khadija--the attitude that she's taken toward 
serving time in prison is quite positive. I mean, she's decided 
that basically she's going to bloom wherever she's planted. 
She's been planted in prison right now by the Government of 
Azerbaijan.
    And in one of the letters that she did write, she said: 
Prison is not the end of life. I'm strong, and I see it as a 
possibility to learn the system from the other side. 
Communicating with alleged criminals, who do or don't accept 
their guilt, I am learning the wrongdoings of the penitentiary 
and justice system.
    She said: In fact it's an unparalleled opportunity. And 
she's going to use the time to translate and write books and to 
do what she can. So she's actually, I think, taken a really 
quite positive attitude. Obviously she doesn't want to be in 
prison, but she's decided that she's going to make the best of 
it.
    Mr. Pejic. Something to add--she's under strict rules. She 
has been prevented to write. She has been prevented to talk 
with her mother without control. But the message we got, she 
used the time to educate other inmates there on their own 
cases. She's helping them.
    Ms. Halgand. I just would like to highlight again the 
really difficult condition and detention in Azerbaijan and the 
difficult access to the lawyers, to the family members and to 
the health care system. So definitely that's a point that you 
should highlight in your own meeting with officials, the 
difficult condition of the detention.
    Mr. Smith. Mr. Pejic, the Radio Free Europe/Radio Liberty 
family--are they very, very concerned about this? I mean, is 
there a sense inside the building, so to speak, that, you know, 
one of our own has been unjustly accused and now incarcerated? 
And frankly--and you may not want to answer this, but maybe our 
other--Mr. Kumar has certainly answered it when he said that 
there--where was it--the U.S. has not intervened in a 
meaningful manner. Well, that can change, and we will appeal to 
the President again to try to get him to--and I think your idea 
is an excellent one--to invite the family, to make it clear 
that he's in solidarity with the unjustly imprisoned woman and 
not with the process that has exploited her.
    But is there a sense among the radio and TV family that 
this is just an outrage?
    Mr. Pejic. Of course. Of course. She's one of us.
    Mr. Smith. Yes.
    Mr. Pejic. Even she was not legally employed by RFE/RL, she 
was one of our contributors.
    Mr. Smith. Right.
    Mr. Pejic. What I'm personally a little bit concerned 
about, to see how other colleagues in other bureaus will react, 
because, you know, we are all human natures. And we all need to 
think of our families, et cetera.
    To the question about the U.S. Government, I--of course as 
a journalist I would like to see a more aggressive approach 
there. On the other hand, I have--as I just outlined a few 
minutes ago, we did get help, and we are going there, from the 
U.S. ambassador from the State Department. And thanks to them I 
believe we did manage to meet pretty high officials in Baku.
    Mr. Smith. Has Secretary Kerry raised this issue personally 
with Aliyev or the foreign minister, as far as we know? Is that 
something we should ask him to do? I mean, really, when I held 
a hearing with Naghmeh Abedini on behalf of Saeed Abedini--and 
Frank Wolf held the first, I held two--at the first hearing, 
she said the State Department said, there was nothing we can 
do. And at least in response to the outrage on Capitol Hill 
that was bipartisan--of course he's being held in Iran--was at 
least we got some words out of the Secretary of State. But Iran 
is certainly not seen as a friend and ally the way Azerbaijan 
is.
    So, you know, it seems to me that leverage needs to be 
ticked up real quick on her behalf and hopefully--you know, a 
rising tide raises all boats, to quote John F. Kennedy--there 
would be an effort--a more robust effort to counter all of 
these jailings of journalists, bloggers and other human rights 
activists. Again, the Norwegian group puts it at 80 people who 
are prisoners of conscience. That's a huge number of people for 
a relatively modest-size country.
    So it's something I think we need to--and this Commission--
you know, we met--and Robert will recall--we had a very robust 
exchange with Aliyev when we were in Baku. And we were there 
twice, back-to-back years. One was when the parliamentary 
assembly was there. The other was when Senator Wicker led the 
effort. We went there from Istanbul and raised these--not this 
issue obviously because it was not on the table then--and met 
with the families.
    So we need to do more ourselves, and we will. That's why 
we're putting on this hearing and why we're introducing the 
legislation, which I think will get their attention. And we're 
very serious about getting it passed. Doris, I know, was 
sitting there, and Doris will remember with the Belarus 
Democracy Act, which had some similar attributes to it on visa 
bans and the like and holding individuals to account. That is 
law, and it has had an impact--has not had the full impact we 
had hoped, which is democracy. But my hope is that we can push 
this very, very aggressively.
    Let me just ask you with regards to the U.N.--was asked by 
Dr. Boozman, and I think it was a good question--you have the 
periodic review coming up--2017 is the next one. A statement is 
important. Hopefully more statements will follow. And so if any 
of you want to comment on what other bodies ought to be doing 
besides Congress and the President, that would be helpful.
    Yes, sir.
    Mr. Pejic. Just if I can say one sentence, and I would like 
to be excused because----
    Mr. Smith. I know you have to go.
    Mr. Pejic.----I have a really important meeting I have to 
attend. We are trying to get--and to prepare ourselves for this 
U.N. session in 2017. And there are attempts at--with us, I 
believe, with some other organizations to have this case there 
present on the human rights committee too--if possible to come 
up with a resolution or something like that. It's going to 
happen, of course, at some point.
    Thank you, Chairman Smith.
    Mr. Smith. Thank you very much, Mr. Pejic.
    Ms. Halgand. I want to highlight the work that the German 
Parliament has done, especially around the European Games last 
June. The work of Reporters Without Borders office in Berlin 
and many very active members of parliament in Germany--I think 
there's a very important effort on that side, which is 
definitely very important. And we can also highlight, of 
course, the work of the Council of Europe, but much more is 
needed from the U.N. and from the U.S.
    And I just want to highlight that because we know that 
President Aliyev cares tremendously about his image and 
especially in the U.S. So I really believe sincerely that 
there's been not enough pressure from the U.S. and that he 
would care if the U.S. acts strongly on these issues.
    Mr. Smith. Thank you. Does that also include the private 
sector? I mean, who does he listen to? Do we know?
    Ms. Halgand. So I asked this question to my colleagues, and 
they say actually because we didn't have so much real pressure, 
it's--in the past, it's hard to know for who he cares. But I 
think the example of the release of Leyla Yunus clearly shows 
that they care about the international pressure.
    So it should just encourage us to raise the tone a little 
bit, because pressure works.
    Ms. Han. Yes, I think certainly today's Council of Europe 
announcement about the inquiry on human rights is really 
important and--because it now, in concert with the Azerbaijan 
Democracy Act, is--I think it's showing a united front, because 
I think that Azerbaijan has gotten somewhat of a pass from some 
of the European institutions from time to time. But I think 
that it's hard for not only the public but also for these 
groups to ignore the consistent crackdown that's been 
happening.
    And in terms of the U.N., just this month there was a 
periodic review on Azerbaijan's adherence to the Convention 
Against Torture. And the report found that despite hundreds of 
allegations of torture within the security services, there 
wasn't even one prosecution. So they were pretty severely 
criticized and asked to do better on that part. So it's 
important to understand that from the U.N. side.
    Mr. Smith. Do we have a sense of what caused this most 
recent crackdown, which began on or about 2012? What was the 
proximate cause?
    Ms. Halgand. So one of the explanations we see is that 
actually with the Arab Spring revolution, there's been some 
demonstration at that time in Baku in very small size, if I 
could say. But it's one interpretation that we can have, that 
the regime got scared that this kind of civil movement could 
duplicate in Azerbaijan. And we saw that at that moment the 
crackdown really step to a new level.
    So that's a potential explanation. But don't believe it was 
a paradise for a journalist or a human rights defender earlier.
    Mr. Smith. Yes.
    Ms. Halgand. But that could be an explanation, the fear of 
an Arab Spring in Azerbaijan.
    Ms. Han. Yes, I think that's correct and also the situation 
in Ukraine. The Maidan uprising and the upheaval that happened 
there, I think, was also disconcerting. And it happened right 
around the time of a presidential election in 2013. And I think 
that at first observers felt that the crackdown that was 
happening prior to the 2013 presidential election was related 
to just the election itself. But then it continued on after 
that. It never let up and in fact got worse.
    So I think that it's perhaps a decision by the government 
that they just can't tolerate the independent voices.
    Mr. Smith. For those who do human rights reporting on the 
ground in Azerbaijan--and Mr. Kumar, you might want to 
especially speak to this--what are the risks to those people to 
report, particularly if their identity is known?
    Mr. Kumar. First of all, we were kicked out of the country 
and those other human rights organizations. We were deported. 
And OSCE, as you're aware, for the election's time, they 
themselves withdrew. Any local domestic Azerbaijanis who are 
trying to help, either direct or indirectly, if they get 
caught, they'll be in very bad shape. So be extremely careful 
in getting information and vetting the information to pretty 
much protect their identity and their protection.
    Ms. Halgand. Reporters Without Borders correspondent in 
Azerbaijan works unofficially for us. And we have an official 
local partner, as I said, the Institute for Reporters' Freedom 
and Safety. And he's German, as I say, had to hide nearly one 
year in the Swiss embassy before being able to leave and is now 
living in exile in Switzerland. So that's the life of the human 
rights defender in Azerbaijan.
    Mr. Smith. Is there anything else any of you would like to 
add? Because your testimonies were outstanding. I think Mr. 
Pejic did a wonderful job in just showing on the record how 
these are bogus charges, these are false charges, trumped up. 
And all of you have provided, I think, the Commission very, 
very important insights.
    And in Shelly's case, she's provided insights to--and has 
been doing it----
    Ms. Han. Color commentary----
    Mr. Smith.----color--for all of us. And I deeply appreciate 
that.
    You know, it was Thomas Jefferson who said, ``Were it left 
to me to decide whether we should have a government without 
newspapers or newspapers without a government, I should not 
hesitate a moment to prefer the latter.'' None of us--even this 
politician sometimes doesn't like the press treatment that I 
get, and all of us feel that way, but would defend to the death 
their ability to publish, free speech, which is our 
constitutional right. And you know, we need to promote this. It 
is a universally recognized human right.
    And I would just ask you--I would ask you one last 
question. That would be, our ambassador on the scene, our 
mission in Baku--how effective has our ambassador been on 
raising these cases, particularly for Khadija?
    Ms. Han. I think it's difficult to assess. Ambassador 
Cekuta is in a very difficult position. And I think that he 
also must follow whatever the State Department line is. And I 
think they're being careful. I think they're trying to be 
careful, they're trying to thread the needle of maintaining 
relationships with Azerbaijan that we've had in the past but 
they are not quite sure how to react. And I think that 
direction from Congress is probably helpful to the State 
Department to change that.
    Mr. Kumar. He doesn't have to wait for this--either way, 
don't do it or do it, from State. He has a lot of authority, 
all the ambassadors. For example, he can visit family members 
of political prisoners. He can invite them and human rights----
    Mr. Smith. Does he?
    Mr. Kumar. I don't know. I'm just saying in general.
    Mr. Smith. Sure.
    Mr. Kumar. If he didn't do it, then he should explore doing 
those things and also having functions. Even in China they do 
that. So he should--if he didn't do it, I didn't follow his 
actions. But there are a lot of things they can do, which I 
don't know whether he's doing or not. Thanks.
    And also, as I mentioned earlier, any trial political in 
nature of this level, he should be there. That's a political 
message.
    Mr. Smith. Your point was very well taken on that.
    Mr. Kumar. Sure.
    Mr. Smith. And I take it he was not there. OK.
    Ms. Han. As far as I know, the ambassador has not attended 
any of the hearings. And if he has met with family members, I'm 
not aware of it, but they--again, if they have, they may have 
kept it quiet as a strategy. But perhaps the strategy should be 
changed.
    Mr. Smith. You know, I would respectfully submit that as an 
ally increasingly careens in the path of human rights abuse and 
cruelty, that relationship becomes less valuable and less 
reliable. And frankly, I would also submit that friends don't 
let friends commit human rights abuses. If we are friends, we 
should be speaking--we should be the first and the foremost in 
bringing this to light, in trying to mitigate and end it.
    So, you know, when we had our conversations, when I did and 
my colleagues, with Aliyev in Baku the second time, it was 
extended. People were leaving and we had to get back to the 
conference. And I said, let's press this individual, this man. 
He was very engaging, but we need honesty and truth and a 
record that is as impeccable as it could be.
    So your testimonies have been tremendous. We thank you and 
look forward to working with you going forward not just on 
Khadija's case but the other cases as well.
    The hearing is adjourned.
    [Whereupon, at 3:43 p.m., the hearing was adjourned.]

                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


 Prepared Statement of Hon. Christopher H. Smith, Chairman, Commission 
                 on Security and Cooperation in Europe

    Good afternoon and I want to thank you all for being here today to 
discuss the terrible plight of political prisoners in Azerbaijan and in 
particular the imprisonment of journalist Khadija Ismayilova.
    Khadija has done hard-hitting investigative reports on corruption 
at the highest levels in Azerbaijan. Khadija's reporting hit its mark 
and the security services in Azerbaijan tried to intimidate Khadija 
from future reporting. They tried to blackmail her with compromising 
information; they threatened her with arrest; she was always under 
watch.
    But Khadija stood firm and stayed focused on her work. In December 
2014 she was arrested and is now paying for her exemplary journalism 
with the loss of her freedom. The government convicted her on spurious 
charges of embezzlement, illegal entrepreneurship, tax evasion and 
abuse of power. She is now serving a seven-and-a-half year sentence in 
a women's prison in Baku.
    Much of Khadija's reporting was done as a journalist for U.S.-
funded Radio Free Europe/Radio Liberty. This means that the U.S. 
government has a special obligation to do everything it can to secure 
Khadija's release. That means our government must take every 
opportunity, must leave no stone unturned, in the effort to secure her 
release. The State Department must make Khadija's release a true 
diplomatic priority--not a talking point on page two of its issue 
briefers.
    One of the questions we will pursue today is whether and to what 
extent our witnesses believe our government is doing that. At this 
point I would say that we did invite the State Department to present 
testimony today--unfortunately the appropriate witnesses are on 
official travel this week. I hope to be able to discuss this matter 
with them when they return.
    Human rights organizations have documented Azerbaijan's crackdown 
on civil society over the last three years. Just yesterday the 
Committee to Protect Journalists released its annual report, and in the 
report they find that Azerbaijan now leads all of the countries in 
Eurasia in jailing journalists. In 2015 Azerbaijan jailed 8 
journalists. Today we are focusing on Khadija's case, but there are 
dozens of other political prisoners, including journalists, sitting in 
a jail cell in Azerbaijan.
    Judicial processes against political prisoners are often farcical. 
In Khadija's case the prosecutors charged her initially with 
``incitement to suicide''--their case collapsed when their witness 
retracted. The prosecutor also charged that she had illegally signed 
service agreements with some RFE/RL employees. The prosecution never 
produced any of the 11 agreements they said she signed, and the four 
witnesses called to testify for the government's case denied that they 
had signed such agreements with Khadija.
    Today is the one-year anniversary of Anar Mammadli's sentencing. 
Anar is the courageous head of EMDS, the leading election monitoring 
organization in Azerbaijan. He spoke the truth about the fraudulent 
2013 presidential election and is still paying the price. I met with 
Anar's father--a very gentle man--just a few months after Anar was 
arrested and so have seen how Anar's family is suffering from this 
injustice. I'd like to mention the names of a few more political 
prisoners in Azerbaijan.

    <bullet>  Ilgar Mammadov: this opposition politician was severely 
beaten in jail on October 16. Despite winning a European Court of Human 
Rights case that said his prosecution was politically motivated, the 
government of Azerbaijan will not free him.
    <bullet>  Intigam Aliyev: this leading human rights lawyer is 
serving 7.5 years for his work seeking justice for political prisoners;
    <bullet>  Rasul Jafarov: this human rights activist is serving a 
6.5 year sentence because the government would not register his NGO.

    There are many, many more--including many that are in prison for 
peacefully practicing their religion.
    In total, the Norwegian Helsinki Committee estimates that there are 
80 political prisoners in Azerbaijan.
    That is why today I introduced the Azerbaijan Democracy Act of 2015 
(H.R. 4264), a bill that will protect U.S. interests in the region by 
advancing human rights and promoting democracy in Azerbaijan. The bill 
recognizes the key role that Azerbaijan's senior leadership has played 
in the decimation of independent voices like Khadija's. Therefore the 
bill will ban their travel to the United States. Our country should not 
set out the welcome mat for officials that imprison journalists and 
opposition politicians or religious believers who peacefully exercise 
their right to freedom of speech and freedom of assembly.
    Over the last two years the human rights situation has seriously 
deteriorated in Azerbaijan causing damage to its relations with the 
United States and other countries, and has damaged its own society by 
imprisoning or exiling some of its best and brightest citizens. The 
time has come to send a clear message.
    Today the Council of Europe is sending that same message to 
Azerbaijan. The Secretary General announced that he is investigating 
the human rights situation in Azerbaijan to determine whether or not 
Azerbaijan is meeting their Council of Europe commitments. This is a 
very rare step for the Council of Europe and the first time that this 
Secretary General has launched this type of inquiry.
    A week ago Azerbaijan gave medical parole to two of its most 
prominent political prisoners, Leyla and Arif Yunus. We should all 
welcome their release--yet it is only a first step in their case. They 
are still under house arrest. And we have not seen even a first step in 
so many other cases. I urge you all to work with me to pass the 
Azerbaijan Democracy Act--which would put the United States government 
firmly and vigorously behind the patriotic and brave Azerbaijanis who 
are fighting for human rights, democracy, and just government. It is 
their fight--but they deserve our support.

    Prepared Statement of Hon. Benjamin L. Cardin, Ranking Member, 
            Commission on Security and Cooperation in Europe

    I'm pleased to see that the Commission is holding this hearing 
today. A lot has happened in Azerbaijan over the past two years that 
has harmed our bilateral relationship, but the persecution and 
prosecution of Khadija Ismayilova and the closure of Radio Free Europe/
Radio Liberty are among the most damaging. I'm glad that we are taking 
the time to highlight her case.
    On November 19, 2014, I chaired a Commission hearing on combatting 
corruption in the OSCE region and the link between security and good 
governance. Khadija Ismayilova was an invited witness. We were looking 
forward to hearing her testimony on the role of journalism in 
combatting corruption. Unfortunately just a couple of days after we 
invited Khadija to testify she was banned from leaving the country. 
Just three weeks later she would be in jail.
    Khadija was able to submit a written statement for our hearing and 
she provided quite a bit of information about the new laws on 
protection of information in Azerbaijan that would restrict her ability 
to find the detailed information on corrupt government connections that 
she has found in the past. I'd like to ask that Khadija's statement 
from the November 19, 2014, Commission hearing be submitted to the 
record for today's hearing as well.
    In her statement she made reference to Azerbaijan's participation 
in the Extractive Industries Transparency Initiative (EITI), an 
important multilateral initiative that has the potential to help 
countries be more transparent about their mineral wealth through 
engagement with their own citizens. Khadija's assessment of 
Azerbaijan's participation was not positive:

        Azerbaijan is a part of the Extractive Industry Transparency 
        Initiative since 2004. As in many other global initiatives, the 
        Azerbaijani government uses the membership as an argument 
        against criticisms of corruption. The country is currently 
        under scrutiny by EITI, as one of the main parts of the 
        Initiative--civil society--is paralyzed and cannot serve as a 
        watchdog. In non-oil extractive industries government-linked 
        monopolies have a huge stake. In 2007 the government of 
        Azerbaijan signed a contract to develop six gold and copper 
        mines with a consortium that is co-owned by President Aliyev's 
        daughters.

    The situation for civil society in Azerbaijan has only deteriorated 
further since Khadija prepared her testimony. Azerbaijan's new 
regulations on NGO registration and specifically NGO's ability to 
receive funding from outside sources are so restrictive that almost all 
of the independent NGOs that have been working in Azerbaijan's 
Multilateral Stakeholder Group for EITI can no longer operate. I don't 
see how Azerbaijan can maintain its status as a compliant country under 
these circumstances. We need to see much greater space for independent 
NGOs and journalists to operate for the EITI process to achieve its 
true value.
    Democratic societies function based on a high level of trust in 
each other and the institutions that underpin democracies. Corruption 
undermines that trust, and thus undermines the very foundation of 
democracies. Corruption has corrosive, and cumulative, effects on 
societies. Wherever corruption rears its head--and every country is 
vulnerable--we must use all our tools to combat this scourge. A vibrant 
civil society and a free press is essential for that effort.
    In Ukraine, the corruption which has plagued that country for 
decades only intensified during the regime of Viktor Yanukovych. A 
major component of the Euro-Maidan protests--the ``revolution for 
dignity''--was the people's disgust with pervasive governmental 
corruption. Ukraine has taken important steps addressing corruption but 
much more needs to be done. In Hungary the government distribution of 
tobacco concessions, secrecy around the Paks nuclear deal with Russia, 
and a new law on public procurement, allowing close relatives of 
decision-makers to compete in public tenders, all erode transparency, 
accountability, and good governance.
    Combating corruption may be the most important task we face today. 
Unfortunately Azerbaijan has taken one of our great anti-corruption 
warriors off the field of battle. We need to work to bring her back.

                   Prepared Statement of Nenad Pejic

    The arrest and imprisonment of Khadija Ismayilova and the closure 
of RFE/RL's Baku bureau represent a targeted and coordinated effort by 
the country's most senior leadership to punish journalists who report 
on the government's corruption, silence independent journalism, and end 
RFE/RL's operations in Azerbaijan.
1. The Arrest and Imprisonment of Khadija Ismayilova
    I will begin with the imprisonment of Khadija Ismayilova, an 
internationally recognized investigative journalist and prominent 
contributor to RFE/RL's Azerbaijani Service.
    The government of Azerbaijan began harassing Khadija in 2012, when 
she started publishing investigative reports that, among other things, 
documented extensive real estate holdings in Dubai belonging to 
President Ilham Aliyev's son, his daughters' control of majority stakes 
in the country's telecom and airlines industries, and the ruling 
family's ownership of extensive national resources, including gold 
mines. (Examples of these reports will be submitted to the Commission 
for the record.) In March 2012, private video and photos of her, taken 
from a camera hidden in her apartment without her knowledge, were sent 
to her with a threatening note and posted to the Internet. This attempt 
to blackmail her has never been investigated.
    On December 4, 2014, senior presidential advisor Rahmiz Mekhtyiev 
published a 60-page tirade in official media calling RFE/RL journalists 
traitors and spies. We believe that this functioned as a kind of 
``warrant'' for Khadija's arrest, and as an instruction for the raid 
that effectively shut down our Baku bureau later that month.
    On the very next day--December 5, 2014--Khadija was arrested on 
charges of encouraging an individual to attempt suicide. This 
ridiculous accusation was soon withdrawn by the accuser, who admitted 
to RFE/RL that he had been coerced by the prosecutor's office to level 
the charge. Azeri authorities brought new charges against Khadija in 
February 2015, this time for abuse of authority, working without 
accreditation, and tax evasion. RFE/RL has publicly and repeatedly 
rejected these charges as baseless.
    Because the charges against Khadija relate directly to the work of 
RFE/RL's Baku bureau during the period she was our bureau chief (July 
1, 2008 to October 1, 2010), RFE/RL submitted a detailed refutation to 
the Azeri prosecutor general on August 18, 2015. We received no reply. 
(A full copy of the letter will be submitted for the record.) 
Furthermore, every accusation of financial wrongdoing by the 
prosecutor's office ignores the findings of Azerbaijan's own tax and 
labor authorities, as documented in routine audits they conducted in 
2010 and 2014.

    <bullet>  Abuse of authority

    As records with the Azeri Ministry of Justice show, RFE/RL's Baku 
bureau was established by RFE/RL, Inc., a Delaware nonprofit 
corporation (the ``Corporation''). The Corporation carries full 
responsibility for the bureau. Our Baku bureau is not a legal entity; 
it merely represents the interests of the Corporation in accordance 
with Azeri laws and regulations. Khadija Ismayilova therefore never had 
any responsibility for, or authority over, the bureau's finances. As 
Bureau Chief, she did not deal with issues like payroll and taxes--her 
job was to oversee the bureau's journalistic work.

    <bullet>  Working without accreditation

    The authorities charge that Khadija was working without 
accreditation. But Azeri law does not require that journalists be 
accredited; only those seeking to participate in ministerial press 
conferences, for example, need accreditation for the event from the 
relevant government office.

    <bullet>  Tax evasion

    Khadija is accused of arranging for Baku bureau employees to pay a 
simplified tax of 4 percent instead of the required income tax of 14 
percent, and therefore depriving the government of 10 percent of owed 
tax revenues. But, as stated above, Khadija, as Bureau Chief, did not 
handle salary, payroll, or employment contracts. This was done by the 
Corporation itself, in accordance with Azeri law. Audits by 
Azerbaijan's tax and labor ministries in 2010 and 2014 confirm that all 
necessary tax obligations were met.
    Another charge of tax evasion relates to a calculation of corporate 
income tax liability based on the Baku bureau's operational costs--a 
calculation appropriate for a commercial firm that generates revenues 
from its operation, not a nonprofit organization like ours. RFE/RL's 
corporate income tax-exempt status is protected by a 1979 US-USSR tax 
treaty that applies to CIS countries. The Azeri government's own audits 
show that all required taxes were paid.
    Regarding due process and the trial itself, the Commissioner of the 
Council of Europe for Human Rights and the Special Representative of 
the OSCE on the Freedom of Mass Media noted in a joint statement after 
Khadija's sentencing that the charges against her and her trial were 
unfair. The New York-based Committee to Protect Journalists (CPJ) 
called the verdict ``a mockery of justice.''
    For example, the proceedings lacked any transparency, as 
journalists, international observers, and members of her family were 
barred from the courtroom. No motions or letters supporting Khadija 
were accepted into evidence during the trial, including RFE/RL's letter 
refuting the charges against her, which I mentioned above. During the 
trial, the prosecutor declared that testimony in her favor would create 
bias and would therefore not be introduced. Of course, the trial showed 
egregious bias, but in favor of the prosecution: not one witness 
testified against Khadija, and yet she was convicted and now sits in 
prison.
    In her final statement in court, Khadija testified that the 
statements made against her were made under pressure, signed without 
having actually been read by the person signing, or exchanged for a 
bribe. As I mentioned earlier, the man who supposedly accused her of 
inciting him to attempt suicide said his accusation was coerced, and he 
ultimately withdrew it. According to Khadija, when tax inspectors were 
questioned in court, they admitted that not a single document they saw 
had her signature on it. They also said they saw only the documents 
shown to them by the prosecution. They said they had made assumptions 
that were not based on actual documents, and in fact did not reflect 
the requirements of the law. Remember: not one witness testified 
against Khadija in court.
2. The Raid and Closure of RFE/RL's Baku Bureau
    On December 26, 2014, RFE/RL's Baku bureau was sealed following a 
raid by the police and investigators from the General Prosecutor's 
Office. During the raid, authorities seized our corporate seal, 
computers, hard drives, professional equipment, and documents belonging 
to our staff-none of which has been returned. Per court order, in 
December 2014 the bank accounts of RFE/RL were frozen for the period of 
investigation, and documents related to the bank accounts and financial 
operations were confiscated. Our longtime lawyer, whom we wanted to 
represent us in this matter, was barred from the case, ostensibly 
because he was a ``witness'' to the alleged crimes. Twenty-six members 
of our staff were interrogated by the General Prosecutor's Office over 
the next several days. Some of them were literally dragged from their 
homes during the night, and most of them did not have legal 
representation. On April 30, 2015, a court decision forced local banks 
to freeze the accounts of our Azeri staff. That same day, the landlord 
of our Baku bureau notified us that our lease had been terminated, 
effective immediately.
    Although the investigation of RFE/RL is formally run by the 
Ministry of Taxes, it was ordered by, and is being controlled by, the 
General Prosecutor's Office. The details of the charges against us are 
vague. The investigators have missed deadline after deadline for 
submitting their findings; each time the next deadline arrives, they 
apply for, and are granted, another extension. The reason is obvious: 
they haven't found evidence of any wrongdoing by RFE/RL. In fact some 
of the investigators have privately conceded to our lawyer that RFE/RL 
has not violated any tax laws and that they're just pursuing this 
investigation because they've been ordered to. The vagueness of the 
charges and the drawn-out manner of the investigation make it clear 
that this is just another scheme to prevent RFE/RL from broadcasting. 
If charges are ever brought against RFE/RL, we will disprove them in 
court. The next deadline for the investigators to present their 
findings is December 30, 2015.
    After the raid on our Baku bureau, several members of our staff 
fled Azerbaijan and have applied for asylum abroad. Many others have 
stopped reporting and remain unemployed. Our former bureau chief, Babek 
Bagirov, remains under a travel ban and cannot leave the country.
    Although our bureau remains closed, RFE/RL's Azerbaijani Service is 
continuing to fulfill its mission and work from our Prague 
headquarters, and with an online audience, particularly on social 
networks, that is growing rapidly. The Service also broadcasts a 
satellite television program to Azerbaijan on TurkSat.
    To provide context for my testimony, I will quickly refer to the 
findings of some of the world's leading media advocacy groups. In its 
latest report covering 2014, Freedom House rated Azerbaijan ``Not 
Free,'' giving it a score of 84 out of 100, 100 being worst, which 
places it somewhere between China and Iran. It gave Azerbaijan's legal 
environment a score of 28, 30 being worst. Azerbaijan ranks fifth among 
the Committee to Protect Journalists' 10 most censored countries. It is 
grouped by CPJ with Eritrea, Ethiopia, Vietnam, Iran, China, and 
Myanmar among the world's 10 worst jailers of journalists.
    Today, Khadija is in prison, her crime being nothing more than 
doing her job as a journalist--reporting about important developments 
inside her country, including corruption. To ensure that her work 
continues, RFE/RL has partnered with the Sarajevo-based Organized Crime 
and Corruption Reporting Project to launch a fellowship in her name. 
Our aim is to encourage more investigative journalism, and to ensure 
that intimidation doesn't win. With this testimony I proudly join the 
international appeal for Khadija's immediate release from prison.

Nenad Pejic, who was named Vice President and Acting Chief Executive 
Officer of RFE/RL, Inc. by RFE/RL's Board of Directors on August 31, 
2015, became Editor-in-Chief of Programming in December 2013. Pejic 
joined RFE/RL in 1993, when he was named the first Director of RFE/RL's 
Balkan Service. Prior to joining the Radios, Pejic held various 
positions with Sarajevo Television including head of the News 
Department, Belgrade correspondent, and Program Director. He also 
served briefly as the Head of Publications and Public Relations at the 
European Institute for the Media. Pejic lectures regularly at 
universities in Germany, Ukraine, Georgia and Montenegro; international 
events such as NATO summits and the Salzburg Seminar; and to a number 
of non-governmental organizations around Europe.

                 Prepared Statement of Delphine Halgand

    Commission Chair Rep. Chris Smith, Members of the Commission, thank 
you for convening this very timely and important hearing. Thank you for 
inviting me to testify today. By your invitation, you honor the work 
Reporters Without Borders/Reporters Sans Frontieres has done since 1985 
to defend journalists and freedom of information all over the world.
    Reporters Without Borders is the largest press freedom organization 
in the world with 30 years of experience. Thanks to its unique global 
network of 150 local correspondents investigating in 130 countries, 11 
national offices (Austria, Belgium, Brazil, Finland, France, Germany, 
Spain, Sweden, Switzerland, Tunisia, USA) and a consultative status at 
the United Nations and UNESCO, Reporters Without Borders is able to 
have a global impact by gathering and providing on the ground 
intelligence, and defending and assisting news providers all around the 
world.
    Azerbaijan is ranked 162nd out of 180 countries in the 2015 
Reporters Without Borders World Press Freedom index. This index 
measures the level of freedom of information. It reflects the number of 
journalists jailed or killed, the degree of pluralism, media 
independence, self-censorship, and transparency in each country. 
Azerbaijan is ranked lower than Egypt or Pakistan.
    In my remarks this afternoon, I will focus on three aspects of 
Azerbaijan's crackdown on journalists and press freedom:

    <bullet>  Suppression of media pluralism
    <bullet>  Imprisonment of critical journalists
    <bullet>  Violence towards journalists

I. Suppression of media pluralism

    President Ilham Aliyev has suppressed all media pluralism in 
Azerbaijan. He has orchestrated an unprecedented crackdown on the 
remaining critics for the past two years.
    A partial media regulation authority and manipulations of the 
advertising market have brought broadcast media under control. 
Corruption, blackmail and intimidation have systematically been used to 
chase journalists away from independent reporting.
    I would like to highlight just a few examples: the Baku bureau of 
RFE/RL was forcibly closed down after a police raid in December 2014; 
the independent newspaper Zerkalo was financially strangled and closed 
down earlier this year; the main opposition newspaper, Azadlig, is on 
the verge of collapse due to astronomical fines and government-
organized debts and it frequently stops printing its few thousand 
copies.
    After successfully suppressing media pluralism at home, the 
Azerbaijani authorities have waged a war against foreign-based 
independent media, created by prominent Azerbaijani journalists forced 
into exile. The authorities seem to be stopping at nothing in their 
determination to persecute independent journalists.
    Ganimat Zahid is the well-known editor of the opposition newspaper 
Azadlig. Ganimat Zahid fled to France in 2011 and has lived there ever 
since. Instead of being satisfied with forcing Zahid to flee the 
country, the authorities are now hounding members of his family who are 
still in Azerbaijan. The family name is Zahidov. After placing his 87-
year-old mother's home in Meysari, a village in the central Shamakhi 
region, under close surveillance, the police began rounding up his 
other relatives. His nephew Tural Zahidov was arrested on July 18, 2015 
for allegedly refusing to comply with instructions from the police and 
was quickly given an ``administrative'' sentence of 30 days in 
detention. His cousin Rovshan Zahidov and another nephew, Rufat 
Zahidov, were arrested separately two days later. Rovshan was sentenced 
to 25 days of ``administrative'' detention on a charge of refusing to 
comply with police instructions while Rufat is facing 5 to 12 years in 
prison on a charge of drug possession under article 234.4.1 of the 
criminal code. None of these relatives are involved in any journalistic 
or political activity.
    Zahid, who was awarded the Reporters Without Borders Austrian 
section's press freedom prize in 2009, was himself arrested on trumped-
up charges in November 2007 and was not released until March 2010. He 
fled the country with his wife and children the following year, after 
they were the targets of serious threats, and has continued to run 
Azadliq from exile in France.
    In 2012, Zahid set about breaking down the wall of broadcast 
censorship by launching Azerbaycan Saati, a TV program transmitted by 
satellite to Azerbaijan from abroad for several hours every week. It 
was jammed and then ousted from the original satellite but new 
satellite space was quickly found.
    Zahid plans to increase the length of the programs. Despite the 
harassment of his family, he told Reporters Without Borders that 
nothing would convince him to terminate his journalistic activities.
    Another worrying example of the Azerbaijan government harassment of 
independent media in exile is Meydan TV, a Berlin-based online TV 
station and news website run by Emin Milli, an Azerbaijani journalist 
now living in Germany. Founded in 2013, Meydan TV quickly established 
itself as a leading independent source of information about this 
authoritarian country. It offers investigative reporting, news coverage 
and news analysis that contrast starkly with what the tightly 
controlled media based in Azerbaijan provide. In particular, it 
provides a great deal of coverage of corruption and human rights 
violations.
    In October 2013, Meydan TV revealed that the results of the 
presidential election had been determined in advance by software 
developed by the Central Electoral Commission.
    During the European Games in June 2015, Meydan TV repeatedly 
reported stories that were embarrassing for the government, including 
the serious injuries sustained by three Austrian athletes when hit by a 
bus, and state TV's use of a fake British tourist to sing Azerbaijan's 
praises in an interview.
    Azerbaijan authorities enraged by the failure of their European 
Games media plan to conceal their massive human rights violations.
    Milli, who fled to Germany in 2012 after 18 months of arbitrary 
imprisonment, has given many interviews to the international media 
about the corruption surrounding the Baku European games and the way 
the authorities have tried to use them to improve their international 
image and divert attention from the disastrous human rights situation 
inside Azerbaijan.
    He reported on June 26, 2015 that an intermediary had passed him a 
message from the sports minister promising that ``the state will punish 
you for this smear campaign against the state that you have 
organized.''
    Azerbaijani officials prevented four Meydan TV journalists--Natig 
Javadli, Elnur Mukhtarov, Ayten Alekperova and Shirin Abbasov--from 
crossing the border into neighboring Georgia on June 30, 2015, telling 
them they were banned from leaving the country.
    Most of the journalists who were prevented from leaving the country 
in 2014 were subsequently arrested or placed under investigation.
    Yafez Akramoglu, who used to work for the Prague-based Azerbaijani 
service of Radio Free Europe/Radio Liberty, said on June 29, 2015 he 
also had received repeated threatening calls from the provincial 
headquarters of the Ministry of National Security (MNS) in the 
autonomous province of Nakhchivan. He said his caller told him he was 
``under surveillance'' and that he and his relatives who were still in 
Azerbaijan would soon be ``punished'' if he did not stop investigating 
the business activities of those close to the head of the provincial 
government.
    In addition, all media support and press freedom NGOs were forcibly 
closed down in 2014: among the most prominent ones, the Institute for 
Reporters' Freedom and Safety (IRFS-Reporters Without Borders local 
partner organisation), Media Rights Institute, IREX Azerbaijan.
    IRFS Chairman Emin Huseynov had to hide nearly one year in the 
Swiss embassy in Baku before an agreement was made to let him leave the 
country. He is living in exile in Switzerland.
    Independent journalists are left with the choice between arrest, 
exile (dozens have left in the past two years), or silence.

II. Imprisonment of critical journalists

    Twelve journalists and bloggers are currently detained in 
connection with their reporting in Azerbaijan.
    The most famous one is Khadija Ismayilova. She is Azerbaijan's 
leading investigative reporter. She covered corruption at the highest 
level. The authorities finally arrested her in December 2014 after 
their many attempts to intimidate her into silence failed. End of 
November 2015, a Baku appeal court's confirmed her seven-and-a-half-
year jail sentence. The supreme court still has to examine the case but 
Ismayilova will now be transferred to a women's prison to begin serving 
the sentence she received on September 1, 2015 on trumped-up charges of 
tax evasion, abuse of authority, embezzlement and illegal commercial 
activity. Her arrest was a political case from the outset. She is in 
prison because of her journalistic work and her human rights activism.
    I would like to highlight as well the case of Rauf Mirkadyrov, 
whose trial began behind closed doors on November 4, 2015, a year and a 
half after his arrest. The trial was quickly expedited and the 
prosecutor's request is expected for December 16, 2015.
    We cannot forget Nijat Aliyev imprisoned since May 2012, Hilal 
Mammadov since June 2012, Araz Guliyev since September 2012, Tofig 
Yagublu since February 2013, Shaig Agayev since February 2013, Rashad 
Ramazanov since May 2013, Abdul Abilov since November 2013, Parviz 
Hashimli since September 2013, Omar Mamedov since January 2014, and 
Seymur Khazi since August 2014.
    Arrests often take the form of kidnappings by plain-clothed 
officers. Journalists are arrested under trumped-up charges, such as 
drug trafficking or hooliganism. Trials are held in camera. The 
courtroom is often filled with paid State servants in order not to 
allow family members to attend.
    We bear witness to tragicomedies in Azerbaijan's courts with 
scripts written long ago by President Ilham Aliyev.
    We could add to this our concerns regarding draconian laws, such as 
the amendments signed into law on February 3 2015, which make it even 
easier for the government to close news outlets. The justice ministry 
can now ask a court to close any news outlet if it gets foreign funding 
or if it is found guilty of defamation twice in the span of a year.
    The only surprise is its superfluous nature, in so much as the 
authorities usually do not hesitate to trample on their own laws in 
order to silence critics. Presumably it is meant to send an additional 
threatening message to the few remaining sources of independently 
reported news and information.
    Since its reappearance in Russian law in 2012, the term ``foreign 
agent'' has been widely used in the region--along with the accusation 
of ``political activities''--as a label to discredit NGOs that receive 
foreign funding.

III. Violence against journalists

    Journalists in Azerbaijan are regularly threatened and even 
violently attacked physically. The freelance journalist Rasim Aliyev 
died on August 9, 2015 in a Baku hospital from the injuries he received 
when he was lured into an ambush and beaten the day before.
    He is the fourth journalist to be murdered in the past ten years. 
The investigations into the deaths of Elmar Huseynov and Alim Kazimli 
in 2005 and Rafiq Tagi in 2011 have yet to yield any credible results.
    Impunity for violence against journalists is systematic in 
Azerbaijan.
    Reporters Without Borders urges the Commission, the Obama 
Administration, and Members of Congress to raise the issue of 
restrictions on freedom of the press in meetings with senior 
Azerbaijani officials, to demand the immediate release of all 
Azerbaijani journalists, to put an end to these trumped-up 
prosecutions, to abandon the practice of collective punishment and to 
investigate the murders of journalists. 
    The United States must make it clear to President Ilham Aliyev's 
regime that it follows the crimes committed against Azerbaijani 
journalists and media closely.
    Thank you again for holding this hearing and for giving me the 
opportunity to contribute on behalf of Reporters Without Borders to the 
discussion.

Delphine Halgand has been working as the Director of the Washington DC 
office for Reporters Without Borders since December 2011. She runs the 
US activities for the organization and advocates for journalists, 
bloggers and media rights worldwide. Acting as RWB's spokesperson in 
the US, Delphine regularly appears on American media (PBS, Democracy 
Now, Wall Street Journal), foreign media (BBC, Al Jazeera, NTN24) and 
lectures at conferences in US universities (Harvard University, UCLA, 
Yale) on press freedom violation issues.

She previously served as Press attache in charge of outreach at the 
French Embassy to the US. Since graduating from Sciences Po Paris with 
an M.A. in Journalism, Delphine has worked as an economics 
correspondent for various French media (Le Monde, Les Echos, 
L'Express), focusing mainly on international politics and macroeconomic 
issues.

                 Prepared Statement of Shelly Heald Han

    Thank you, Mr. Chairman. As staff of the U.S. Helsinki Commission, 
I traveled to Azerbaijan in late October and met with government 
officials as well as the few remaining activists, lawyers, and 
journalists who are not in jail or who are were not afraid to speak 
with someone from the United States. The mood was somber among the 
independent activists as many of their colleagues were in jail and 
they, and often their families, faced harassment from the government or 
were under threat of their own arrest. But I cannot say they were 
defeated--in fact they were defiant in the face of the crackdown and 
determined to continue the fight for human rights. The bravery and 
optimism that Khadija Ismayilova has shown during her trial and 
imprisonment has played a big part in keeping that determination going.
    On the afternoon of October 29, I attended one of Khadija's appeal 
hearings. The courtroom was almost full and even more attendees were 
filing in, searching for the last few remaining spots on the crowded 
benches. There was a moment of confusion and then we were all told to 
move to a different courtroom. There was a scramble as the crowd rushed 
to the new courtroom. If you did not find a seat you would not be 
allowed to stay--no standing allowed--so there was a mad dash for seats 
and not everyone was able to attend. Apparently this room-swapping was 
a common technique used by the court to ensure that no one had any 
physical contact with Khadija or chance to exchange words.
    I could feel the tension in the courtroom, but also the 
resignation. It was as if we were at a theater and we all knew the grim 
ending of the play, but held out hope that audience participation might 
somehow change the outcome. There was no doubt Khadija would be found 
guilty. It was not because of the preponderance of evidence against 
her. In fact, the evidence did not support the prosecution at all. But 
it was because the whole trial was being held to fit the government's 
desired conclusion--a guilty verdict--and the court was now merely the 
stage on which to act it out.
    Khadija had started serving her sentence on the day of her arrest. 
The only thing she did not know was how much longer she would be in 
jail.
    Since the guilty verdict is assumed, the punishment starts before 
the trial begins. Essentially every single political prisoner in 
Azerbaijan has spent the entirety of their trial period in pre-trial 
detention, despite the availability of a bail system. Khadija spent 
almost exactly one year in pre-trial detention, from her December 5, 
2014, arrest to her November 25, 2015, final appeal.
    The conditions in pre-trial detention are often harsher than in the 
regular prison. Khadija was not given consistent or sufficient time 
with her lawyers to prepare her case; her family was obliged to provide 
her with food, clothing and other basic necessities; her family visits 
were restricted or denied; and communication with the outside was 
extremely limited and Khadija was punished many times, including being 
placed in solitary confinement, for issuing statements or writing 
letters from jail.
    When we arrived in the second courtroom Khadija was already in the 
glass-enclosed witness cage where she spends the entirety of the 
hearing process. She cannot speak unless the microphone in her cage has 
been turned on, and in other hearings over the last year the judge 
would cut off Khadija's microphone whenever she said something the 
court didn't want to hear.
    The court had another particularly cruel practice: as we filed into 
the courtroom, the tallest and most burly guards were standing, 
shoulder-to-shoulder, in front of the glass cage so that Khadija was 
not able to see or even wordlessly communicate with her elderly mother. 
Her mother was anxiously peering left and right around the uniformed 
guards trying to catch a glimpse of her daughter--did she look sick? 
Was she in good spirits?
    We took our seats. Khadija pressed a piece of paper to the glass 
with a message to her mother. She was quickly told by the guards to put 
it down. The judge filed in and read a short notice about the procedure 
of Khadija's appeal. Khadija had one more month to file a certain 
petition, so the court would send her back to pre-trial detention to 
wait that full period of time. The judge quickly turned and left. As we 
were hustled out of the courtroom I, too, leaned around the guards 
searching to make eye contact with Khadija. There she was. We exchanged 
a quick wave. a big smile, and the universal peace sign. With that, I 
was pushed out the door. Leaving Khadija behind.

                        M A T E R I A L    F O R

                          T H E    R E C O R D

=======================================================================

  Prepared Statement of Khadija Ismayilova, Submitted for the Hearing 
 ``Combatting Corruption in the OSCE Region: The Link Between Security 
                and Good Governance,'' November 19, 2014

    Dear Mr Chairman:
    I am grateful to the U.S. Helsinki Commission for holding this very 
important hearing and for giving me the opportunity to speak about 
corruption in Azerbaijan.
    I am a contributor to Radio Free Europe/Radio Liberty, which is a 
leading source for independent news for Azerbaijanis, despite being 
banned on local broadcast frequencies in Azerbaijan. The radio has the 
leading role in uncovering corruption in the country.
    Azerbaijan has joined the Open Government Partnership, initiated by 
U.S. President Obama and Brazilian President Rousseff in 2012. In a 
letter of intent in October 2011, Azeri Foreign Minister Mammadyarov 
informed his American counterpart U.S. Secretary of State Hillary 
Clinton about Azerbaijan's long history of combatting corruption. 
Azerbaijan has undertaken a number of commitments within the context of 
its participation in OGP, including access to information. However, in 
the very same 2012, Azerbaijan has changed its legislation to restrict 
access to information.
    Since June 2012, when the laws ``On state registration and state 
registry of legal entities'' and ``On commercial secrets'' have been 
amended, information about the founders of commercial legal entities 
and their shares in the charter capital is considered confidential.
    With the same legislative move the law ``On the right to obtain 
information'' had been changed. The new version of the law states that 
information deemed contrary to the purposes of the protection of 
political, economic, military, financial and credit and monetary 
interests of the Republic of Azerbaijan, to the protection of public 
order, health and morality, protection of rights and freedoms, 
commercial and other economic interests of other individuals, ensuring 
the prestige and impartiality of the court, shall not be released even 
following information requests.
    These legislative actions were the government's response to a 
series of journalistic investigations revealing high level corruption 
and conflicts of interest, including involving the president's family.
    The facts cited in those investigations show that the families of 
the Azerbaijani president and several ministers are beneficiaries of 
monopolies in most of the non-oil sector of the economy. Thus, the 
president's daughters control more than 70 percent of mobile 
communications and one of two backbone internet providers, control 
assets in the three biggest holding companies (AzEnCo, Pasha Holding 
and Ata Holding) and several banks. The holdings and companies 
controlled or linked to the president's family enjoy biggest public 
contracts. In most of the cases the ownership of the companies has been 
hidden behind a chain of offshore companies registered in Panama and 
British Virgin Islands.
    Most high-profile visitors to Baku, including members and staffers 
of the U.S. Congress, stay in the Four Seasons Hotel, which is part of 
the president's family's company. Over 30 architectural sites, 
including part of the ancient city wall, were destroyed during the 
construction of the hotel. This and several other business endeavors of 
the president's family have cost many ordinary Azerbaijanis their 
property. The citizens have failed to restore their property rights in 
the courts of Azerbaijan. Those whom the government has failed to 
intimidate have sought justice in the European Court of Human Rights.
    Even the construction of the National Flag square, which was 
presented as a symbol of pride for Azerbaijanis, has become an 
unfortunate example of corrupt practices. The government allocated 30 
million AZN ($38,5 millions) to build ``the highest flagpole in the 
world.'' The 162 meter-high flagpole kept its supremacy only for 
several months, as Tajikistan, another OSCE member country also leading 
in corrupt listings, has built one that is higher by two meters. The 
contract for building the flag square was granted to AzEnCo, a company 
owned by President Aliyev's daughters.
    Azerbaijan is a part of the Extractive Industry Transparency 
Initiative since 2004. As in many other global initiatives, the 
Azerbaijani government uses the membership as an argument against 
criticisms of corruption. The country is currently under scrutiny by 
EITI, as one of the main parts of the Initiative--civil society--is 
paralyzed and cannot serve as a watchdog. In non-oil extractive 
industries government-linked monopolies have a huge stake. In 2007 the 
government of Azerbaijan signed a contract to develop six gold and 
copper mines with a consortium that is co-owned by President Aliyev's 
daughters.
    The oil-related extractive industry is partly under oligarchic 
control as well. Offshore companies, hiding Azerbaijani names and 
linked to the State Oil Company's management or the president's 
family's businesses, appear as partners in joint ventures, winning oil 
production and trade contracts.
    Investigations also reveal that the transportation minister's son 
and his business partners enjoy exclusive opportunities in the public 
transportation sector of Azerbaijan. The money, the source of which is 
highly questionable, is being invested by Mr. Anar Mammadov in lobbying 
activities in the United States through the Azerbaijan-America 
Alliance. The lobbying events are attended by number of the U.S. 
Congress.
    Unlike U.S. officials and members of Congress, Azerbaijani 
officials and members of parliament do not file asset declarations. The 
Azerbaijani president signed a decree requiring to do so, but none of 
the officials, including the president himself, has ever filed a 
declaration, referring to the fact that the Cabinet of Ministers has 
neglected to create a template for such a document.
    The candidates for the presidency and parliament are required to 
fill in a form declaring their assets, however, this information is not 
provided. I sued the Central Election Commission for refusing to 
provide this information.
    Investigations reveal that some members of the Azerbaijani 
parliament own businesses. A constitutional requirement to stop their 
mandate in case of a conflict of interest is neglected.
    Corruption in Azerbaijan undermines not only the well-being of the 
country's citizens but also endangers the country's independence. 
Corruption in education and healthcare puts people's lives at risk, and 
as a solution, they seek remedy in neighboring countries.
    You might have heard many times from Azerbaijani interlocutors that 
the country exists in very difficult geography: it is sandwiched 
between Russia and Iran. These are the two main destinations for people 
who fail to find healthcare and jobs in Azerbaijan. Monopolies and 
corruption in Azerbaijan have created a huge problem with the 
availability of basic services. According to WHO data, Azerbaijanis pay 
70 percent of their healthcare expenses, even though the country claims 
to provide medical care for free.
    The country has failed to establish an insurance system. The Soviet 
style healthcare management is corrupt, and the failure of the 
education system and drug monopolies make it impossible for 
Azerbaijanis to receive even basic medical services in the country. The 
solution is right there, next door, in Iran. Azerbaijani citizens enjoy 
healthcare services there at far more affordable prices than in their 
own country. Iranian government and private clinics attract more 
Azerbaijanis by providing special promotion packages. According to the 
Iranian embassy in Baku, every year 800,000 citizens out of a 
population of ten million Azerbaijanis travel to Iran for healthcare.
    Millions of Azerbaijanis still depend on remittances coming from 
guest workers in Russia--those Azerbaijanis who could not find 
opportunities in their own oil-rich country and have left to earn their 
living on the territory of their northern neighbor.
    Azerbaijanis will feel the full impact of corruption and 
mismanagement when the oil money runs out. A devastated economy and 
environment, in addition to the lack of savings for the future, may 
become a cause of societal unrest in foreseeable future. Seventy 
percent of Azerbaijan's budget comes from oil production. Oil is the 
main commodity of Azerbaijan, making up 92 percent of its exports.
    Oil fuels corrupt construction projects, which create temporary 
employment. The so-called ``white elephant'' projects like the concert 
halls for Eurovision or stadiums for the Euro Olympics will hardly 
return investments and help Azerbaijanis earn a living in the post-oil 
period.
    The state procurement system has become more transparent in the 
past two years, however it still fails to allow access to information 
enabling citizens to monitor procurement procedures. Even with minimum 
access to information, using public sources, journalists have revealed 
facts of corruption.
    Azerbaijani journalists and NGOs combatting corruption pay a 
personal price for these efforts. The country's broadcast media is 
under state control, Azadliq newspaper, the only newspaper that 
publishes investigative reports about the president's family, is barred 
from nationwide distribution and faces financial difficulties, and RFE/
RL, BBC and VOA are banned on local broadcast frequencies. Online 
penetration is not good enough for the internet to become a substitute 
for TV. Weekly satellite TV programs from abroad are being jammed. The 
individual journalists who investigate corruption are being punished by 
intrusion into their privacy and smear campaigns in pro-government and 
the ruling party's media, and they are labeled enemies of the state. In 
some cases the journalists are being subject to enormous libel fines, 
even in cases when their story was not libelous.
    The latest wave of pressure on NGOs has targeted the remnants of 
the research centers and media support institutions. The bank accounts 
of those NGOs are frozen, and leaders have had to leave the country or 
hide.
    With the downgrading of the OSCE's mandate inside the country, most 
of the projects related to media and combatting corruption have 
stopped. The government of Azerbaijan has not approved any of the 
media-related proposals of the Baku project coordinator's office.
    Investigative journalists in Azerbaijan have done their best to 
show the government where the problems are. In fact, the system of 
corruption in Azerbaijan is managed from the top, and top government 
officials are the main beneficiaries of corruption. Recent reforms made 
the corruption even more centralized, leaving less room for low-level 
officials to participate in corruption schemes.
    And here I want to mention a positive part of the story. I want to 
single out the partial reform of the public service, in particular the 
establishment of so-called ASAN (easy) services. ASAN is an agency of 
the Azerbaijani government which provides a variety of public services 
to citizens. Services are made available at public service halls 
throughout the country. Currently, ASAN endeavors to provide over 50 
services at the main location in Baku.
    These islands of good governance show that the Byzantine style of 
business is not a destiny for Azerbaijanis, and that public servants 
can be professional and effective when they wish. Although there are 
some open questions related to ASAN procurements, the agency has 
decreased petty corruption in many areas of service. However, the 
service is yet to become a nationwide provider of public services and 
lacks authority in key areas like custom clearances, NGO registration, 
etc.
    Even these islands of good governance though cannot reduce all the 
risks. Does the Azerbaijani government understand the risks of 
corruption? It probably does, although the overall system is based on 
every citizen's contribution to corruption and lies. As Alexander 
Solzhenitsyn has described in his essay, ``Live Not By Lies,'' the 
system, designed by the Soviet KGB, depends on everyone's 
participation. Azerbaijanis are tempted to pay bribes to ease their 
lives on many occasions every day. The country has failed to complete 
the land and property registry of the capital city, leaving up to 
500,000 households outside the law. Doctors and teachers, who receive 
$150 monthly salary, are forced to demand bribes. An analysis of cross-
border trade statistics of neighboring countries shows that Azerbaijani 
customs have hid imported goods worth billions of dollars. The non-
registered goods end up in the black market and create illegal 
businesses. Hundreds of thousands of Azerbaijanis have become forced 
accomplices of the corrupt system, thus becoming vulnerable and silent, 
making it easier for the government to suppress and rule.
    Here I want to speak on how the global powers of the international 
community can help Azerbaijanis to stop living by lies.
CONCLUSIONS
    International institutions must pay more attention to the 
development of investigative journalism. Bad guys know how important 
investigative journalism is, and they invest a lot of money in buying 
out the broadcasters and silencing journalists. Good guys should know 
its importance as well.
    The Azerbaijani government had been successful in jamming hour-long 
satellite TV programs, but it will be impossible for them to jam 24/7 
programming. Azerbaijanis should receive 24/7 TV broadcasts of 
independent content which will not only inform the citizens on what is 
going on inside the country, but also become an alternative source of 
news to what is coming from Russia.
    Azerbaijan needs to be held accountable to the Open Government 
Partnership and fulfill its commitments by granting access to 
information and by stopping harassment of journalists.

These remarks are submitted in my individual capacity, and do not 
necessarily represent the views of RFE/RL.

*Below are articles written from Radio Free Europe/ Radio Liberty

     Azerbaijani President's Family Benefits From Eurovision Hall 
                              Construction
By Khadija Ismayilova
May 09, 2012

    Later this month, the eyes of the world will be focused on a 
shimmering glass-and-steel building newly erected on the shores of the 
Caspian Sea to welcome the pop stars and television crews from the more 
than 40 European countries that will broadcast the Eurovision Song 
Contest 2012 spectacle.
    Azerbaijan won hosting rights to the popular extravaganza last 
year, when its pop duo of Ell and Nikki sang their way to victory in 
Eurovision 2011. The Azerbaijani government responded proudly with 
plans for a new $134 million concert showplace called the Crystal Hall, 
which seats 23,000.
    Finished only a few weeks ago, it was a tense race to get the venue 
ready in time. Its importance was signaled by the frequent visits made 
by President Ilham Aliyev and First Lady Mehriban Aliyeva to the bold 
geometric structure as it rose amid the construction site.
    But their interest was not just ceremonial and patriotic. An 
investigation by the Organized Crime and Corruption Reporting Project 
(OCCRP) and RFE/RL has discovered that the first family is personally 
profiting from the massive construction project through its hidden 
ownership in the Azenco construction company.
    The company contracted for the work has long been identified in all 
official announcements as Germany's Alpine Bau Deutschland AG. Yet some 
of the equipment at the construction site is stamped with the company 
name Azenco. Rolf Herr, a representative of Alpine Bau in Azerbaijan, 
described Azenco as a subcontractor.
    He would give no other details of its involvement. The Alpine Bau 
press office in Germany did not respond to questions about how 
subcontractors and vendors had been chosen.
Front Companies
    Azenco is owned through a series of front companies that mask the 
real owners. The official newspaper of the agency for privatization of 
state property in Azerbaijan announced in 2010 that Baku-based 
Interenerji MMC acquired 97.5 percent of the shares of Azenco.
    According to privatization records from March 2010, ADOR MMC, 
another Baku-based company, controls 70 percent of the ownership of 
Interenerji. Company registration documents list ADOR's legal address 
as ``7 Samed Vurgun Street.'' The registered occupants of that address 
at the time were Mehriban Aliyeva, Leyla Aliyeva, and Arzu Aliyeva, the 
wife and daughters of the president, respectively.
    In 2010, RFE/RL investigated the privatization of the State 
Aviation Company's infrastructure, including Azalbank (currently 
Silkwaybank), which also has as a registered shareholder Arzu Aliyeva, 
residing at the same address. Presidential spokesman Azer Gasimov at 
the time confirmed that the shareholder was indeed the president's 
daughter.
    Gasimov did not respond to repeated phone calls and a written 
inquiry about the presidential family's connection to Azenco and the 
appearance of a conflict of interest if Azenco is profiting from state-
funded construction projects.
Predating Eurovision?
    Eurovision 2012 event coordinator Sietse Bakker said it was not the 
proper organization to answer questions about the first lady or the 
Crystal Hall construction.
    Bakker said the city of Baku commissioned the multifunctional 
indoor venue before Azerbaijan won Eurovision. ``We have no involvement 
with the construction of the hall, so you should ask this question to 
the responsible authorities,'' he said.
    Official records do not support Bakker's contention. Presidential 
Order 1620, from July 2011, to build the concert hall, came after the 
May Eurovision victory.
    ``I have not seen written records,'' Bakker said, ``but it doesn't 
take much to realize that there is quite a lot of planning going into 
the construction of such [a] venue.''
Very Expensive Flag
    The Crystal Hall is the second project to raise conflict-of-
interest questions about Azenco.
    It also helped construct the grandiose $38 million State Flag 
Square near the Crystal Hall, which briefly held the ``Guinness Book of 
World Records'' title for tallest flagpole in the world.
    An enormous Azerbaijani flag flies above the construction site of 
the Crystal Hall on the Caspian shoreline in Baku earlier this year.
    A few months after it was put up, Azerbaijan's 162-meter flagpole 
was surpassed by an even taller flagpole in Dushanbe, Tajikistan.
    Two-thirds of the cost of the square in Baku came from the Reserve 
Fund of the head of state by presidential Decrees 532 (October 26, 
2009) and 1052 (August 3, 2010). The other one-third came directly from 
the 2011 state budget in accordance with a decree by the Cabinet of 
Ministers 260 S (August 25, 2011).
    A spokesman for the cabinet, Akif Ali, refused to respond to 
questions about how Azenco came to be chosen as a partner in the 
project.
Looting State Coffers
    Azenco has been employed on numerous state-funded projects less 
showy but possibly no less profitable than the Baku work. State 
Procurement Agency records show that in 2010 alone the company was 
awarded contracts worth $79 million. The company also recently gained 
control of Sumqayit Technology Park, a former state-funded enterprise 
started by Azerenerji, the government-owned energy producer.
    Azer Mehtiyev, director of the Center for Assistance to Economic 
Initiatives, a politically independent think tank, says Azenco looks 
like a clear example of a scheme to ``misappropriate'' some of the 
country's oil wealth.
    ``With the big oil money flowing into the budget, a parallel 
process of monopolization of spheres of economy, redivision of state 
property . . . [made] way for the misappropriation of revenues,'' 
Mehtiyev said.
    ``Big infrastructure projects financed by oil revenues are mainly 
distributed to companies which belong to high-ranking officials. The 
government keeps the information about owners of the companies secret. 
The state contracts are assigned to companies established in offshore 
zones with unknown owners making public control over the process 
impossible,'' he added.
    According to Mehtiyev, it is especially difficult to get 
information about the business interests of the president's family.
Anticorruption Talk, No Action
    Azerbaijan adopted an Anticorruption Law in 2004 that obliges 
officials to declare the income and property holdings of themselves and 
their relatives.
    In August 2005 (order No. 278), the president ordered the Cabinet 
of Ministers to prepare a special form on which officials would give 
that information within two months. But the forms were never drafted 
and officials never provided the information. It is not clear if the 
president or the first lady, who is also a member of parliament, have 
submitted declarations in the past decade.
    The presidential administration and the Central Election Commission 
will not respond to questions about their property. A written inquiry 
sent to the first lady's website was not answered.
    In January 2011, President Aliyev declared that the government 
would take serious measures against corrupt officials.
    The 2012 Eurovision event will have one other tie to the first 
family besides the new showcase auditorium: The president's son-in-law, 
singer Emin Agalarov, was chosen to entertain the crowd between acts.

                                  *      *      *

 TeliaSonera's Behind-The-Scenes Connection To Azerbaijani President's 
                               Daughters
By Khadija Ismayilova
July 15, 2014

    Through a trail of owners and offshore registrations, the two 
daughters of President Ilham Aliyev appear to be connected to 
Azerbaijan's largest mobile phone business, Azercell.
    Records indicate they are linked to two of the three largest 
providers, which means the government is potentially controlling nearly 
three-quarters of the mobile market.
    This raises serious questions about Internet surveillance and 
communications security within Azerbaijan and may help to explain 
complaints about costly service.
    It also indicates more unusual ties between Swedish telecom giant 
TeliaSonera and Eurasian political figures than the company has 
publicly acknowledged, according to documents reviewed by the Organized 
Crime and Corruption Reporting Project (OCCRP) and (RFE/RL).
    It has been a difficult 18 months for TeliaSonera.
    In late 2012, Swedish TV and OCCRP revealed that TeliaSonera was 
being investigated for bribery in connection with $320 million paid to 
a company run by a close friend and business partner of Uzbekistan's 
ruling family in order to obtain a 3G license in that country.
    In Azerbaijan, the surreptitious links between the ruling family 
and the country's mobile phone companies raise questions about how real 
the competition can be among the top companies.
    The answers lie in a complex web of offshore and business records 
that connect Azercell, the company's largest mobile provider, to the 
Aliyev daughters. TeliaSonera owns nearly 40 percent of Azercell.
    After the affair in Uzbekistan, TeliaSonera changed its management 
roster and vowed to overhaul business practices and ethical standards. 
Company officials, however, refuse to discuss any specific actions they 
have taken or are taking in Azerbaijan.
    Today Azerbaijan's telecom market is split between Azercell, 
Bakcell, and Azerfon. And while the Aliyev daughters' ownership of 
Azerfon has been widely reported, newly examined documents reveal a 
close connection between the Aliyevs and Azercell as well.
    Azercell, with nearly half of the market, was established in 1996 
by the government of Azerbaijan and its parent company Azertel, which 
at that time was a subsidiary of Turkcell in Turkey.
    Since then, TeliaSonera has bought shares in Azercell through an 
offshore subsidiary called Fintur Holdings. The Swedish firm also owns 
shares of Turkcell.
    The second-largest provider is Bakcell, with about one-third of the 
market. It was established in 1994 by the government and GTIB 1996 LTD, 
registered in the British Virgin Islands, a well-known offshore tax 
haven. It is unclear who ultimately controls Bakcell.
    The third-biggest provider is Azerfon, with about one-fourth of the 
market. As reported previously, 72 percent of Azerfon shares is owned 
by Leyla and Arzu Aliyev, daughters of the Azerbaijani president.
    To understand the connections between the companies, follow the 
paper trail of a Swiss national named Olivier Mestelan, who has 
frequently served as secretary in companies owned by the Aliyev 
daughters and whose name keeps popping up in telecom records.
    For example, Azertel is the parent company of Azercell. 
TeliaSonera's partner in Azertel--a company called Cenay Iletishim--is 
represented by Mestelan. Mestelan also shows up in records of Azerfon.
    This means figures linked to the Aliyev family control nearly 
three-quarters of all mobile communication providers, including mobile 
Internet, and are capable of monitoring phone calls and website visits 
on a massive scale.
    Media watchdogs say these hidden connections behind the ownership 
of mobile-phone operators raise serious questions about Internet 
freedom and the extent to which government officials may be listening 
to citizens.
    Rashid Hajili is the director of the Media Rights Institute in 
Baku, which monitors media and protects journalists' rights. He says 
the Internet is heavily monitored by the Azerbaijani government, which 
has a history of blocking websites that criticize it.
    Hajili says the Ministry of Communication requires all 
communication companies to provide equipment and special facilities to 
the Ministry of National Security for surveillance. But while the 
companies have cooperated with Azerbaijani law enforcement in cases 
involving journalists and bloggers, Hajili says media rights advocates 
haven't received information needed to defend those journalists.
    Defense lawyer Elchin Sadigov says Azerbaijan's mobile companies 
don't even seek court approval to listen in, as required by law. ``The 
court-order requirement was neglected in the case against journalist 
Avaz Zeynalli, when his colleagues--all of them journalists working for 
the `Khural' newspaper--had been illegally monitored,'' he says.
    ``All of the phone operators, including Azercell, provided access 
to recorded phone conversations without due legalities. The same 
happened in the case of the journalist Parviz Hashimli. In this case 
the investigation was conducted by the Ministry of National Security 
and, according to the indictment, they had full access to phone 
conversations.''
    Amnesty International has declared Hashimli and Zeynalli 
``prisoners of conscience.''
    Recent cases show how dangerous it can be for a government to have 
this much power.
    Agil Khalil, a reporter for the Azadliq newspaper, has sued 
Azerbaijani mobile operator Azercell in the European Court of Human 
Rights and is awaiting a verdict.
    Khalil, who fled the country in 2008 after a series of attacks on 
him, has accused the Azerbaijani government and the mobile phone 
operator of plotting against him.
    In 2008, Khalil was stabbed in the chest after publishing an 
article alleging that employees of the Ministry of National Security 
were involved in corrupt land deals in Baku. According to the Media 
Rights Institute, Azerbaijani law enforcement tried to present the 
attack as irrelevant to his work and to start a smear campaign against 
him, alleging that the journalist was stabbed by a jealous homosexual 
lover, Sergey Strekalin. The rights institute has led Khalil's defense.
    Khalil, who says he is not homosexual and has never met Strekalin, 
demanded that law enforcement investigate and punish the real 
attackers. Law enforcement ignored that and Strekalin, who testified on 
behalf of the prosecution, served less than half of a 1 1/2-year prison 
term.
    The prosecutors' office alleged that they had SMS exchanges between 
Khalil and Strekalin, provided by Azercell. Azercell, however, refused 
to provide those messages to Khalil or his lawyers. Khalil maintains 
that the messages are fraudulent and that he never sent them.
    Activists say it is not only journalists who are victims of illegal 
activities involving the telecommunications companies.
    When Nigar Yagublu, a youth activist and daughter of opposition 
party member Tofig Yagublu, was facing trial for a car accident, she 
learned that both her phone and that of her father were being tapped.
    Investigators claimed that they obtained a court order permitting 
the wiretapping on the same day the investigation into the accident 
began. However, the indictment quoted conversations that took place 
immediately after the accident, proving that the listening had been 
underway before a court order could have been in place.
Competing Companies, Same Signature
    When TeliaSonera's subsidiary Azercell entered the Azerbaijani 
market in 1996, it was a joint venture between the government and 
Azertel, a Turkish company whose owners were Fintur Holdings (79.8 
percent) and two Turkish companies: Cenay Iletisim and Cenay Insaat 
(10.1 percent apiece). TeliaSonera is the majority owner of Fintur 
Holdings.
    In November 2005, two Panamanian companies--Dilsan Investment SA 
and Colville Group SA--bought Cenay Iletisim for 8.85 million Turkish 
liras (US$ 6.6 million). In Panama, it is easy to hide true ownership 
of a company behind proxy names; the incorporation documents were 
signed by Olivier Mestelan, while his name didn't appear as an officer.
    That same year, a new communications company--Azerfon--entered the 
country's mobile phone market. The government bypassed tender procedure 
laws to grant Azerfon its license. Six years later--in 2011--
journalists discovered that the Aliyev daughters owned 72 percent of 
Azerfon through three Panamanian companies.
    Leyla and Arzu Aliyeva alternate in the role of either president or 
treasurer of all three Panamanian companies, while Mestelan is listed 
as secretary of all three. Mestelan is a well-known figure in Baku who 
owns a high-end art gallery. His perceived relationship with the Aliyev 
family earned him a spot on a short list of people ``of particular 
interest'' compiled by the US State Department.
    Mestelan has been profiled by ``Baku'' magazine, published by Leyla 
Aliyeva in Moscow. She is also an editor in chief.
    Mestelan also sits on the advisory board of Ata Holding, owned 
largely by a Panamanian company, Hughson Management, where Arzu Aliyea 
is president, sister Leyla is treasurer, and Mestalan is secretary.
    Mestelan is also connected to one of the companies that owns 
Azercell. His signature appears on the Panamanian incorporation for 
Dilsan Investment, but documents do not list any position he holds. A 
search in the Turkish Official Business Gazette finds Mestelan listed 
as a signatory for both Dilsan Investments and Colville Group, the two 
Panamanian companies that bought a 10.1 percent share of Azercell in 
2005.
    In 2008, the government of Azerbaijan sold its 35.7 percent share 
of Azercell to its Turkish-Swedish-Panamanian partner Azertel for $180 
million. After the Azertel partners each raised their investment stakes 
by varying amounts, Fintur Holding owned 51.3 percent, Cenay Iletisim 
owned 42.2 percent, and Cenay Insaat owned 6.5 percent.
    It was a lucrative deal for the Cenay Iletisim owners . According 
to Azertel financial reports listed in the Turkish Official Business 
Gazette, from 2006 to 2012 Cenay Iletisim received dividends worth at 
least $249 million while investing only $95 million, for a profit of 
$154 million.
    Despite its indirect links with the ruling family, Azercell spent 
six years trying to get a license to provide 3G service to its mobile 
phone customers. Azerfon--the competing company controlled by the 
Aliyeva sisters--held the 3G monopoly until the end of 2011.
    At about the same time that Azercell finally received a 3G license, 
a newly-formed company, FA Invest Malta Limited, took over the 6.5 
percent shares from Cenay Inshaat. FA Invest was incorporated in Malta 
and its ownership structure is hidden.
    But according to the Turkish Official Business Gazette, Azerbaijani 
citizen Hamzayev Rashad Firidunoglu was appointed to represent FA 
Invest Malta Limited at Azertel board meetings. A person by the same 
name is a major in the Special State Guard Service, responsible for the 
President's personal security. His names appears on a list of Guard 
Service employees who received special awards ``For the service to 
motherland'' from Aliyev in 2010.
    Hamzayev did not respond to a request for comment.
    In its 2013 annual report, TeliaSonera noted the formation of a new 
Sustainability and Ethics Committee and listed ``anti-corruption'' as a 
focus area.
    When asked about the ownership of Azercell and whether the company 
had begun to take promised measures, including renegotiating or even 
terminating agreements with business partners, Salomon Berkele, head of 
external communication for TeliaSonera, said the company would go into 
no further detail beyond the goals stated in the annual report.
The Appearance Of Competition
    The near-monopoly on mobile phone service may also be driving up 
prices.
    Baku resident Jahangir Alibeyzade juggles daily with three phones. 
He says the only way to afford phone communication in Azerbaijan is to 
have simcards from three different operators. Calls between carriers 
are too expensive. Even with this trick, mobile communication tariffs 
are still too high, Alibeyzade says.
    Azerbaijan charges one of the most expensive mobile call tariffs in 
the area:
    Kamal Mahammadli, who also uses three SIM cards, says operators 
charge nearly the same rates because there is no real competition. 
Alibeyzade also thinks there is no free market. Ahmed Mahmudov, who 
lives in the town of Agdash and works in a shop selling construction 
materials, has his own explanation for why he couldn't choose among the 
three operators.
    ``They claim they have different campaigns and cheaper prices, but 
at the end of the month you see that you didn't pay less for using 
their services,'' he says.
    Asked why the existence of three competitors doesn't reduce prices, 
Mahmudov says, ``Your logic doesn't work here. We have our own logic in 
this country.''
    The Azerbaijani government and the three companies claim there is 
competition. A deeper look into incorporation documents tells a 
different story.

                                  *      *      *

 Azerbaijani Government Awarded Gold-Field Rights To President's Family
By Nushabe Fatullayeva and Khadija Ismayilova
May 03, 2012

    BAKU--Novruz Allahverdiyev, 40, lives in a mud house in the village 
of Chovdar, a small mining town in the mountainous region near the 
border with Armenia. He is one of 800,000 internally displaced persons 
from the war with Armenia that battered his native Nagorno-Karabakh 
region in the early 1990s.
    Allahverdiyev and members of 60 other displaced families found 
shelter and a place to farm in the mountains around Chovdar. Like many 
in his predicament, Allahverdiyev is patriotic, and the walls of his 
poor home are plastered with pages from an aging calendar featuring 
portraits of President Ilham Aliyev and his late father, former 
President Heydar Aliyev.
    Allahverdiyev's family now faces yet another problem. A British 
mining company has taken over some of his land and has blocked one of 
the two streams his village relies on for water. Allahverdiyev is sure 
President Aliyev will help him and his community.
    But his faith may be misplaced. What Allahverdiyev doesn't know is 
that the president and his family own a stake in the new mine. The U.K. 
company is actually a front for the first family.
    In two 2007 decrees, the state assigned the right to develop the 
Chovdar gold field and five other sites to a company called Azerbaijan 
International Mineral Resources Operating Company, Ltd. (AIMROC). 
AIMROC--which controls a 70 percent stake in the mines, while the 
Azerbaijan government controls 30 percent--has been building the 
infrastructure for the Chovdar mine and is expected to begin production 
this year.
Panamanian Trail
    But sorting out AIMROC's structure is a daunting task. While 
Chovdar locals blame the ``ingilis'' (English) for their woes, the 
truth is quite different. AIMROC is a joint venture of four companies: 
Londex Resources, S.A, Willy and Meyris S.A., Fargate Mining 
Corporation, and Globex International LLP. All four are shell companies 
that, according to Azerbaijani officials, were set up specifically for 
this deal. It is unclear if any of them have any mining experience or 
other mining projects.
    A fifth company--Mitsui Mineral Development Engineering Co Ltd 
(MINDECO), a mining-engineering company owned by Japan's Mitsui Mining 
and Smelting Company--is listed as the official project supervisor, but 
has no ownership.
    Of the four AIMROC owners, the only U.K.-based company is Globex 
International, which has an 11 percent stake, worth about $200 million. 
But Globex is actually owned by three companies registered in Panama: 
Hising Management SA, Lynden Management Group, Inc., and Arblos 
Management Corporation. According to Panamanian registration records, 
all three firms list President Aliyev's two daughters--Leyla and Arzu 
Aliyeva--and Swiss businessman Olivier Mestelan as senior managers.
    Mestelan has long had close ties to the Aliyev family. He has 
organized artistic events with them and, together with Leyla and Arzu, 
appears in the records of other Panamanian companies being used as 
fronts for businesses in Azerbaijan, including the Azerfon cellular-
services provider. Mestelan declined to be interviewed for this story.
    Aliyev's office refused to answer questions about his family's 
business interests in the gold fields. Presidential spokesman Azer 
Gasimov did not return phone calls and did not respond to questions 
submitted in writing.
Opaque Decisions
    AIMROC has been controversial from its beginning. The consortium 
was formed by a 2006 presidential decree that identified Globex as part 
of the consortium. In 2007, AIMROC was awarded 30-year leases on the 
mineral fields.
    Chovdar alone is a lucrative parcel. According to the Azerbaijani 
Environment Ministry, it contains reserves of 44 tons of gold and 164 
tons of silver, worth about $2.5 billion at current prices.
    The contracts were awarded to AIMROC hastily and over the 
objections expressed by many members of parliament during hearings held 
in June 2007. Lawmakers complained that the consortium's ownership was 
opaque; that the contract was awarded in violation of bidding 
procedures; that none of the companies had any history of mining; and 
that the deal was contrary to Azerbaijan's national interests. During 
the hearings, deputy Valeh Aleskerov, chairman of the parliamentary 
Natural Resources Committee, defended the deal. He said the creation of 
offshore companies was ``a common practice around the world'' and that 
no tender was issued because of the uncertainty about how much mineral 
wealth there was. Instead, he said, the government held talks directly 
with potential investors.
    The Environment Ministry's chief geologist, Agamahmud Samedov, told 
RFE/RL that the estimates of the other five fields are classified. He 
also declined to comment on AIMROC's ownership or its lack of mining 
experience.
    When asked last month about AIMROC's ownership, Aleskerov said, 
``Do you think the Azerbaijani government would contract with someone 
unknown, with just anyone from the street?'' When asked if the Aliyev 
family has any financial interest in the project, Aleskerov said only 
``Shame on you!'' and hung up.
Professional Proxies
    Parsing the rest of AIMROC's structure is more difficult. Londex 
Resources and Fargate Mining are registered in Panama, according to 
documents obtained from the Panama Registry of Companies.
    The documents indicate that the companies are interrelated through 
a complicated chain of company directorships. All three are or were at 
one time owned by two companies registered at the same address on the 
tiny Caribbean island of Nevis: Casal Management and Tagiva Management.
    Casal and Tagiva act or acted as the director for at least 20 
companies in the United Kingdom, the United States, and Panama. It is 
likely that the companies are professional proxies used to hide actual 
ownership.
    According to a document of the Tax Registry of Azerbaijan, Willy 
and Meyris S.A. (listed in some documents as Will & Meyris S.A.) is 
represented by a Czech geologist, Mirko Vanecek, the executive editor 
of ``The Journal of Geosciences'' in Prague.
`The President Is A Good Person'
    Meanwhile, back in Chovdar, locals are looking forward to a rumored 
visit by President Aliyev to mark the opening of an ore refinery the 
consortium has built.
    ``We have heard that president will come to the opening ceremony of 
this factory,'' villager Paneh Huseynov says. ``Please tell our 
president to come and visit us. Tell him we support his policies. We 
will not be allowed to approach him. Please, we ask him to come and ask 
about our living conditions. Then he'll see how we live and how we 
suffer.''
    Villagers had no idea that the president's family owns part of the 
mine operator. ``How can the president be benefiting from this 
production? . . . All of the companies here are foreign. Englishmen are 
running the business here,'' says one local who refuses to give his 
name.
    Teacher Nureddin Ramazanov lost some land to AIMROC. With a salary 
of just $130 per month, Ramazanov says his family is starving.
    ``The company destroyed our road,'' he says. ``Geologists took our 
land. They paid us only 2,000 manats [$2,500] per hectare. Now I don't 
know how we'll survive.''
    Meanwhile, Karabakh exile Allahverdiyev says he is hoping to get a 
job at the mine. Locals say mining jobs pay the equivalent of $12 a 
day. So far, the mining site has hired very few locals.
    Despite grinding poverty and the problems with the mine, most 
locals remain firm in their faith in Aliyev, whose omnipresent portrait 
gazes out over the people of Chovdar from the walls of shops and 
schools.
    ``The president knows nothing about this,'' says teacher Ramazanov. 
``Local officials say the president ordered that our land be taken, but 
I don't believe it. He is a good person.''

                                  *      *      *

     Aliyev's Azerbaijani Empire Grows, As Daughter Joins The Game
By Ulviyye Asadzade and Khadija Ismayilova
August 13, 2010

    BAKU--On the drive between Baku's international airport and the 
capital center, travelers are met by a brigade of sleek roadside signs 
advertising a company called SW Holding.
    But as innocuous as the posters may appear, they represent a 
company that enjoys a near-complete monopoly over every aspect of 
airline service.
    Mid-flight meals? Served by Sky Catering, which is owned by SW 
Holding.
    Taxi service? Run by Airport Gate, also owned by SW Holding.
    Technical upkeep of the national carrier's planes and helicopters? 
Silkway Technics. It--and multiple other companies controlling 
everything from traveler assistance to ticket sales to duty-free 
stores--are all owned by SW Holding.
    The holding company is so expansive it even includes its own Silk 
Way Bank. According to an investigation by RFE/RL's Azerbaijani Service 
using documents obtained by the State Committee on Financial 
Securities, the bank's owners include two women with close ties to the 
country's leadership. One is Zarifa Hamzayeva, the wife of the 
president of Azerbaijan's AZAL state airline company. And the other is 
Arzu Aliyeva, the 21-year-old daughter of the country's president, 
Ilham Aliyev. (The remaining owner and current majority stakeholder is 
Silkway Airlines LLC, which is registered abroad.)
    The rise of SW Holding, which has seamlessly absorbed many of 
AZAL's former businesses, has raised questions about dubious 
privatization practices in Aliyev's Azerbaijan. It also serves to 
underscore how the political elite continues to use close friends and 
family members to preserve its hold on the country's most valuable 
assets--despite Azerbaijani laws that list nepotism by state officials 
as an offense punishable by up to 12 years in jail.
The Kids Are Alright
    Ilham Aliyev likes to keep things in the family. It's a trend 
started by his father, Heydar, who ruled the country for 30 years 
before effectively handing the reins to his son before dying of a heart 
condition in 2003. Aliyev's wife, Mehriban Aliyeva, is a parliament 
deputy and a prominent political figure in her own right.
    According to a report in ``The Washington Post,'' the couple's 
preteen son, Heydar, last year became the legal owner of nine luxury 
mansions in Dubai purchased for some $44 million. Their daughters, Arzu 
and Leyla, also have Dubai property registered under the names. In 
total, the children's property holdings are estimated at $75 million.
    As president, Aliyev earns an official salary of close to $230,000 
a year. But Aliyev, who prior to office served as vice president of 
SOCAR, Azerbaijan's state oil company, has kept a tight grip on the 
resources of his oil-rich country, and his holdings are believed to be 
in the tens of millions of dollars. Neither he nor his wife have 
declared their net worth, in defiance of Azerbaijani law.
    The law also prohibits public officials from owning businesses. 
Family members, however, face no such restriction. It is unclear where 
Arzu Aliyeva--who until now was best known for her role in an 
Azerbaijani tourism ad aired on CNN--may have acquired the estimated 
6.4 million manats ($7.8 million) she used to acquire her initial stake 
of 29.08 percent--or how she would pull together the additional 4.5 
million manats that she and Hamzayeva would both need to achieve 
matching blocking stakes.
    Hamzayeva is the owner of Gazelly, a successful cosmetics business, 
but experts say it is unlikely her profits are large enough to allow 
multimillion-dollar bank investments.
    In an interview with RFE/RL, presidential press secretary Azer 
Gasimov confirmed that Arzu Aliyeva was one of the owners of the Silk 
Way Bank. As an Azerbaijani citizen who had reached the age of 
majority, Aliyeva was fully within her rights to establish her own 
business, he said.
Dodgy Privatization
    The rise of SW Holding and Silk Way Bank have raised questions 
about the privatization of AZAL, the state airline company, including 
its holdings, like AZAL Bank. The privatization process was launched in 
2003 under a plan drafted by Azerbaijan's Ministry of Economic 
Development.
    According to state law, the entire process was meant to be 
conducted by the State Committee on Privatization of State Property. 
But Gulu Khalilov, the committee's spokesman, told RFE/RL he had no 
information on who privatized AZAL Bank.
    Anar Khanbeyli, a financial expert with Azerbaijan's Turan news 
agency, says the process was dodgy from the start.
    ``Normally, the state's share should be privatized through the 
State Committee on Privatizing State Property. And the privatization of 
the state's share in the bank was supposed to be conducted by the same 
committee,'' Khanbeyli says. ``They're supposed to make an 
announcement, accept bids, announce conditions for participating in the 
tender, and then announce a winner. None of these procedures was 
followed. They bypassed them completely when they privatized the 
state's share.''
Million-Dollar Contracts
    In the meantime, SW Holding has slowly but steadily acquired nearly 
all of AZAL's former companies, including the insurance firm AZAL 
Sigorta, which is now co-owned by SW Holding and the two daughters of 
Jahangir Asgarov, the president of AZAL and the husband of Zarifa 
Hamzayeva, the current co-owner of Silk Way Bank.
    SW Holdings has also been the sole contractor on a number of high-
profile AZAL projects, including airport-construction deals in 
Lankaran, Ganja, and Zagatala worth a total of $150 million.
    Neither side is eager to clarify the connection between the two 
entities. SW Holding referred an RFE/RL request for information to the 
AZAL press services, which responded that SW Holding was a private 
company and should be able to answer questions on its own.
    Khanbeyli says all the parties supervising the AZAL privatization 
were negligent, from the privatization committee to the Central Bank, 
the Tax Ministry, and AZAL itself.
    ``AZAL was supposed to cry foul when it was deprived of its bank,'' 
he says. ``I guess they didn't because the shareholders are the AZAL 
president's wife and the daughter of the president of the country.''
    This is not the first case where the head of state-run agencies 
have used close relatives to privatize the most profitable parts of 
their businesses. RFE/RL has previously reported on ZGAN Holding--a 
private company run by Anar Mammadov, the son of Transport Minister 
Ziya Mammadov--which was awarded several multimillion-dollar 
construction contracts with the ministry after a murky bidding process.
    Questions have also been raised about Tale and Nijat Heydarov, the 
sons of Kemaladdin Heydarov, the current minister for emergency 
situations and the former head of the state customs committee. The 
Heydarov brothers are the owners of United Enterprises International, a 
group of companies engaging in everything from caviar sales to the 
ownership of the Gabala soccer club, which is peppered with foreign 
players recruited from abroad.
    But their father, like Ilham Aliyev, has repeatedly refused to 
report his net worth, and the source of the Heydarovs' wealth has never 
been clarified.

                                  *      *      *

  Azerbaijani President's Daughters Tied To Fast-Rising Telecoms Firm
By Khadija Ismayilova
June 27, 2011

    BAKU--Azerfon, a Baku-based telecoms company that operates under 
the brand Nar, is one of the success stories of the new Azerbaijani 
economy. Founded in March 2007, the company already boasts nearly 1.7 
million subscribers and covers 80 percent of the country's territory. 
Azerfon is Azerbaijan's only provider of 3G services.
    In April, the Caspian-European Integration Business Club (whose 
honorary chairman is Azerbaijani President Ilham Aliyev) named Azerfon 
``mobile operator of the year.'' The honor was presented to Azerfon 
board chairman Cuneyt Turktan by Azerbaijani Minister of Communications 
and Information Technologies Ali Abbasov.
    But the company's ownership structure has been clouded in mystery 
since its creation. Now, RFE/RL's Azerbaijani Service has conducted an 
investigation linking Azerfon's main shareholders to the daughters of 
President Aliyev.
    Aliyev's family has been tied to numerous suspicious business 
dealings in the past. His family controls a company called SW Holding 
that has privatized many lucrative elements of the state-owned AZAL 
airline. The ``Washington Post'' reported in March 2010 that Aliyev's 
three children are the registered owners of some $75 million worth of 
real estate in Dubai. First lady Mehriban Aliyeva and her two daughters 
are believed to control several of the country's largest banks.
    When the Communications Ministry announced the formation of Azerfon 
late in 2006, it said the company was owned by the German firm Siemens 
AG and a couple of British firms. The ministry has repeated the same 
information several times in the ensuing years.
    But Siemens AG spokeswoman Monika Bruecklmeier-Langendorf told RFE/
RL that her company has never owned any shares in Azerfon or any other 
mobile operator in Azerbaijan.
    Likewise, the Finland-based Nokia Siemens Networks (NSN) denied 
owning a stake in Azerfon. ``NSN has never owned shares of Azerfon. NSN 
is leading provider of solutions and services to the communications 
industry, and our policy is not to own shares of our customers,'' NSN 
spokeswoman Anna Lehtiranta said.
    When RFE/RL informed the Communications Ministry of the information 
from Siemens, a ministry spokesperson simply repeated that Siemens is 
an Azerfon shareholder.
Mum's The Word
    Azerfon's press office refused to provide information about its 
shareholders to RFE/RL. It also declined to provide information about 
its total revenues or the amount of taxes it pays, except to assert 
that it pays its taxes in a timely fashion.
    However, according to documents obtained by RFE/RL from the 
Azerbaijani Tax Ministry (registration number 1105-T13-3906), Azerfon 
is owned by three 
Panama-registered companies, one company registered in the Caribbean 
tax haven of Nevis Island, and the state-owned Aztelekom. The latter 
owns 10 percent of Azerfon, while the Nevis Island firm Cellex 
Communications SA owns 18 percent. The three Panama-registered firms, 
each of which owns 24 percent of Azerfon, are Hughson Management, Inc.; 
Gladwin Management Inc.; and Grinnell Management Inc.
    Vasif Movsumov, chairman of the Baku-based Anticorruption 
Foundation, says such a lack of transparency raises questions.
    ``If two government agencies give contradictory information about a 
company's ownership, and the company itself is not transparent on this 
issue, there is a high probability of corruption in its practices,'' 
Movsumov said.
    International anticorruption campaigners have long noted that the 
use of offshore shell companies in tax havens is a common tactic for 
hiding the identity of a company's owners and covering illegal 
activities such as corruption and money laundering.
Trans-Atlantic Trail
    The Panama State Registry provides basic information about the 
three companies registered there that are purportedly among Azerfon's 
owners. According to their records, Leyla Aliyeva, President Aliyev's 
25-year-old eldest daughter, is registered as the president of Gladwin 
and Grinnell. In both cases, Arzu Aliyeva, Ilham Aliyev's 22-year-old 
second daughter, is registered as company treasurer.
    In the case of Hughson, the roles are reversed, with Arzu listed as 
president and Leyla as treasurer.
    All three companies list start-up capital of $10,000.
    All three Panama-based firms also list Olivier Mestelan, a Swiss 
businessman who reportedly has close ties to the Aliyev family, as 
treasurer. ``Baku'' magazine, which is published in Moscow by Leyla 
Aliyeva, profiled Mestelan as an art collector and patron. He owns the 
Kicik QalArt gallery in Baku and is founder of the Art ex East 
Foundation. According to the ``Baku'' profile, he is a lawyer by 
training who owns a home in Azerbaijan that he visits several times a 
year. RFE/RL was told at the Kicik QalArt gallery that Mestelan would 
not comment on the businesses he owns.
    Likewise, the presidential administration refused to provide 
information relating to the Aliyev family's business holdings. 
According to an Azerbaijani law adopted in 2005, senior government 
officials, including the president, are required to provide asset 
declarations about themselves and their immediate families. President 
Aliyev has never made such an asset statement public and the Azerbaijan 
Central Election Commission rejected RFE/RL's request for copies of his 
statements.
Perceived Irregularities
    There are other unanswered questions about Azerfon. Rovshan Agayev, 
director of the Center for Assistance to Economic Initiatives, claimed 
that Azerfon entered the Azerbaijani market in violation of a 2001 law 
requiring a license tender.
    ``In order to obtain the legal rights to operate in the country, 
communications companies need to demonstrate their technical and 
investment eligibility by participating in tenders,'' Agayev told RFE/
RL. ``None of the Azerbaijani mobile-phone operators has ever 
participated in such a tender. When Bakcell entered the market in 1995 
and Azercell in 1997, the state procurement law had not yet been 
adopted. However, in 2006, when Azerfon appeared on the market, such 
procedures were already mandatory.''
    Agayev says the Communications Ministry violated the law by 
approving Azerfon without a tender.
    In addition, the manner in which Azerfon acquired its current 
monopoly on 3G services raises questions. Competitor Azercell--which 
has more than twice as many subscribers as Azerfon--has applied for a 
3G license repeatedly in recent years and been repeatedly rejected by 
the Communications Ministry. Azerfon was granted the license without a 
tender.

                                  *      *      *

Prior to her arrest on Dec. 5, 2014, Khadija Ismayilova hosted a 
popular program on Radio Free Europe/Radio Liberty's Azerbaijani 
service and worked as a senior investigator with the Organized Crime 
and Corruption Reporting Project. Her work has been recognized with the 
PEN America Press Freedom Award and the National Press Club John 
Aubuchon Press Freedom Award.

Khadija wrote these words in a letter from prison in February 2015:

        Prison is not frightening for those trying to right a twisted 
        scale, or for those who are subject to threats for doing the 
        right thing. We see clearly what we must fight for. Life is 
        very complicated, but sometimes we get lucky and are offered a 
        clear choice, between truth and lies. Choose truth and help us.

On May 27, she celebrated her 39th birthday in Baku's Kurdukhani jail.

On September 1, 2015, Khadija Ismayilova was convicted on charges of 
embezzlement, illegal entrepreneurship, tax evasion, and abuse of power 
in a closed-door trial and sentenced to seven-and-a-half years in 
prison. On November 25, an Azerbaijani appellate court upheld the 
guilty verdict against Ismayilova, confirming her sentence.

[THE FOLLOWING IS NOT AN EXACT OR OFFICIAL TRANSLATION OF THE ORIGINAL 
            DOCUMENT, WHICH WAS SENT IN THE AZERI LANGUAGE.]

 [A SCAN OF THE ORIGINAL DOCUMENT IN AZERI ACCOMPANIES THIS UNOFFICIAL 
                             TRANSLATION.]

Prosecutor General of the Republic of Azerbaijan
Mr. Zakir Qaralov

and

Judge of the Court of Grave Crimes
Ms. Ramella Allahverdiyeva

Washington, DC
18.08.2015

    Dear Mr. Prosecutor General and Your Honor!
    For the past eight months, the work of RFE/RL's (Radio Free Europe/
Radio Liberty) Azerbaijan bureau has been paralyzed as a result of what 
we see as illegal intervention on behalf of General Prosecutor's Office 
and the Ministry of Taxes.
    Before the tax inspection of the Radio Free Europe/Radio Liberty 
Baku bureau was finalized, a separate case was made out of the on-going 
criminal case against our former colleague Khadija Ismayilova. In order 
to strengthen the case against journalist Ismayilova [she was 
originally charged with inciting someone to suicide] she was also 
charged with abuse of authority, money laundering, illegal 
entrepreneurship, and tax evasion all of which were committed during 
her time of employment with Azadliq Radiosu.
    Since the new charges are directly related with the work of Azadliq 
Radiosu we feel it is our duty to comment on them.
    We consider the accusations brought against Khadija Ismayilova as 
accusations directly against our radio and hence we refuse to accept 
them.

    1. According to the Regulations of the bureau registered by the 
Ministry of Justice of Azerbaijan, the bureau was established by ``RFE/
RL Inc.'' Company (3.1) and based on the legislation of the state of 
Delaware. The company hence carries full responsibility of the bureau 
(3.4).
    According to the company Regulations, ``the bureau isn't a legal 
entity. It protects and advocates for the Company's interests only in 
accordance with laws and regulations in force in the Republic of 
Azerbaijan'' (5.1). The management is carried out by an individual 
appointed by the Company (7.1). The position, function and 
responsibilities of the manager of the bureau are determined by the 
Company's power of attorney (7.3).
    The head of the bureau was always responsible for the content, 
planning, organizing of the work flow, preparation of the shows, 
literary content and etc.
    Since June 22, 2005 until today, RFE/RL Inc. Azerbaijan bureau 
administration were carried out by Bureau Administrator in accordance 
with the company regulations and the power of attorney.
    Having someone manage the radio's programming activities and its 
financial responsibilities based on a legal entity contract is 
completely out of the question.
    Khadija Ismayilova was employed as Bureau Chief since July 1, 2008 
until October 1, 2010 according to an employment contract. As of 
October 1, 2010 she resigned from this position based on her own 
decision. Since then, and until her arrest on December 5, 2014 she 
continued her work with the radio based on a civil contract. She was 
the host of the daily radio show, ``After work''.
    According to the RFE/RL Inc. Azerbaijan bureau regulations and the 
agreements signed with the directors of Azadliq Radiosu, neither 
Khadija Ismayilova, nor her predecessors or successors have had the 
responsibility or authorization for the bureau's finances, which 
includes planning of bureau's overall flow of expenses, presentation of 
financial reports to the tax authorities and so on.

    2. One of the charges against Khadija Ismayilova and consequently 
Azadliq Radiosu is illegal entrepreneurship based on the claim that 
between January 2008 and January 1 2009, Azadliq Radiosu broadcasted on 
101.7FM radio wave without a license.
    RFE/RL Inc. Company's broadcasts on Azerbaijan FM airwaves or any 
other airwave are managed by the Washington based International 
Broadcasting Bureau (IBB). IBB negotiated with National Television and 
Radio Broadcasting Council, the Ministry of Communications and 
Information Technologies, including the Ministry-based Radio Television 
Broadcasting and the Satellite Communication Production Association 
paying all the necessary fees for broadcasting on local FM airwaves. 
The decision to stop broadcasting on FM airwaves and related 
correspondence was carried out with the Washington based IBB.
    The radio's FM broadcast lasted from January 1, 2007 until December 
31, 2008. The National Television and Radio Broadcasting Council 
provided the Azadliq Radiosu with license TR 052 to broadcast on 
101.7MHz. On September 7, 2008 when the original agreement ended, the 
two sides continued negotiations in the meantime with National 
Television and Radio Broadcasting Council permission to continue 
broadcasting on the same airwave. However, the second round of 
negotiations yielded no results and as of December 30, 2008, the 
radio's license was terminated.
    The state administration of Radio Frequencies of the ministry of 
Communications and Information Technologies and the Ministry of Radio 
and Television Broadcasting and Satellite Communications Production 
Association and the IBB had agreements signed from 01.01.2007 until 
01.01.2009. According to these agreements the costs of the above 
mentioned institutions were fully paid up to January 1, 2009.
    This information was provided in inquiries raised by the RFE/RL 
Inc. company legal representative and lawyer Adil Ismayilov.

    3. According to another criminal charge brought against Khadija 
Ismayilova, she was engaged in tax evasion. It is said that Ismayilova 
arranged for radio employees to pay simplified tax (4%) instead of the 
required income tax of 14%. Therefore she is wrongfully accused of 
wasting the 10% difference, which amounts to 17,992.60AZN according to 
the Criminal Code Article 179.3.2--misappropriation or embezzlement 
when carried out in large quantities.
    Even if the claims of the investigation were true, accusing someone 
in this particular case of embezzlement is nonsensical; at most this 
can be described as tax evasion.
    But there is logic to the actual accusation. If Khadija was found 
guilty under article 213.1 of the Criminal Code--tax evasion--she would 
get maximum 3 years in jail. And once the outstanding debt is paid, she 
could be totally discharged of her crime. But such a possible outcome 
did not please the investigators. If found guilty of the current charge 
under article 179.3.2, Khadija could be locked up for 12 years.
    We consider it crucial to highlight a very important clause once 
again, not at any time of her work as bureau chief was Khadija 
Ismayilova responsible for handling salary and employment contracts. It 
was directly done by the RFE/RL Corporation itself.
    While it is clear this has nothing to do with Khadija, it also 
important to mention that the corporation itself never violated 
Azerbaijan's legal framework.
    Azadliq Radiosu hires people either on employment contract or on 
freelance contracts for services. The tax payments differed based on 
whether an employee was on an employment contract or service contract.
    In the first case, it is the company responsible for taxes, in the 
latter it is the person providing the service. In both cases however, 
all taxes were fully paid.
    4. Another absurd charge brought against Khadija Ismayilova claims 
that Ismayilova avoided paying taxes. The accusation is based on an 
alleged sum of 1,354.368 AZN and Khadija's failure to pay the 
outstanding amount of 45,145.63AZN to be paid into state budget.
    The investigator knows well that Azadliq Radiosu is not for-profit 
organization and according to its regulations, its goal isn't business 
ventures and generating revenues; but supporting democratic values and 
institutions by sharing news and ideas.
    The fact is that Azadliq Radiosu is a nonprofit organization and 
therefore is exempt from income taxes in US, and also according to US/
USSR Tax Treaty from 1976, which applies to CIS countries.
    RFE/RL is not a corporate income tax payer in Azerbaijan, therefore 
calculation of any income taxes by prosecutors based on operation costs 
transferred to Baku bureau is against bilateral treaties.
    This is why, ``RFE/RL Inc.'' Company's Baku bureau could not be 
paying corporate income tax.
    In addition, the investigators were fully aware that the money was 
coming in from the RFE/RL, Inc. Company itself to cover operational 
costs, to show this as the bureau's income is nothing more but a clear 
attempt to prejudice.
    This financing did not bring the radio additional financial income, 
but covered the expenses of the rent, salaries, honorariums, buying of 
equipment for the radio and so on.
    5. We also consider the following charge brought against Khadija 
Ismayilova biased and non-objective. She is accused of working without 
accreditation and hence being involved in illegal entrepreneurship 
appropriating large sums of money.
    It is the inability of investigators to see that no such criminal, 
administrative or even civil offense exists in Azerbaijani legislation 
that would punish someone for not getting an accreditation as a 
journalist.

Sincerely,

        Benjamin Herman
        RFE/RL, Inc. Corporate Secretary and General Counsel 
        
        [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
        
        
        
          Organization for Security and Co-operation in Europe

               The Representative on Freedom of the Media

                            Dunja Mijatovic

Vienna, 17 December 2015

U.S. Representative Christopher H. Smith
Chairman
The Commission on Security and Cooperation in Europe

U.S. Senator Roger F. Wicker
Co-Chairman
The Commission on Security and Cooperation in Europe

Your Excellency, Chairman Smith,
Your Excellency, Co-Chairman Wicker,

I am writing to express my support for the continuing efforts of the 
Commission on Security and Cooperation in Europe in addressing the 
unjust sentencing of Khadija Ismayilova, a prominent investigative 
journalist with Radio Free Europe/Radio Liberty in Azerbaijan. I 
followed with great interest yesterday's hearing ``Azerbaijan's 
Persecution of RFE/RL Reporter Khadija Ismayilova'' organized by the 
Commission.
    As you may know, I have repeatedly spoken out on Ismayilova's 
conviction and addressed her case with the authorities on several 
occasions:

    <bullet>  On 5 December 2014 I issued a public statement condemning 
her arrest and saying that it was orchestrated intimidation and part of 
the campaign to silence her free and critical voice (http://
www.osce.org/fom/130076);
    <bullet>  On 23 February 2015 I wrote to Minister of Foreign 
Affairs Elmar Mammadyarov conveying my concern about media freedom in 
Azerbaijan, particularly noting her case and that she was in custody 
while facing new charges of embezzlement, illegal business and abuse of 
power. In addition, in the meanwhile she was found liable on criminal 
libel charges and fined. In the letter, I also noted that Ismayilova 
has serious health issues and requires continuing professional medical 
care;
    <bullet>  On 27 August 2015 I wrote to the authorities requesting 
permission to attend Ismayilova's trial. I noted reports that members 
of the independent press and civil society had been denied access to 
the courtroom. No permission to attend the trial was granted;
    <bullet>  On 1 September 2015 together with Council of Europe 
Commissioner for Human Rights Nils Muiznieks, I issued a public 
statement condemning the sentence handed down on Ismayilova. I said 
that the charges and the trial were unjust and another clear signal 
that the authorities were silencing critical voices in the country. I 
reiterated my call to stop targeting journalists (http://www.osce.org/
fom/179391).

    Additionally, on 29 December 2014 I issued a public statement 
denouncing a raid on Radio Free Europe/Radio Liberty in Baku and again 
called on the authorities to stop the intimidation of free media. 
Reportedly, the radio's bureau was raided by investigators from the 
state prosecutor's office. Documents, files and equipment were 
confiscated and the premises were sealed. Employees were called in for 
questioning. I said the authorities must allow the radio to resume its 
work and safeguard the existence of critical voices in the country 
(http://www.osce.org/fom/133046).
    Although my calls to release Ismayilova remain unaddressed, I 
sincerely believe that public activities involving wider international 
community, such as the 16 December hearing organized by the Commission 
to scrutinize Ismayilova's persecution, would contribute to securing 
her, as well as other media members, release in the country.
    In addition to Ismayilova, there are more than 10 journalists, 
bloggers and social media activists in prison or pre-trial detention. 
They include:

    <bullet>  Rasul Jafarov, a free expression and free media advocate 
and human rights defender, on charges of embezzlement,
    <bullet>  Seymur Hazi, a columnist for the newspaper Azadliq, on a 
charge of hooliganism;
    <bullet>  Omar Mamedov and Abdul Abilov, bloggers, on charges of 
illegal storage and sale of drugs;
    <bullet>  Parviz Hashimli, a journalist with Bizim Yol newspaper, 
on charges of smuggling and illegal storage and sale of firearms;
    <bullet>  Nijat Aliyev, editor of the www.azadxeber.az news 
website, on various charges, including drug possession and incitement 
of hatred;
    <bullet>  Rashad Ramazanov, an independent blogger, on charges of 
illegal storage and sale of drugs;
    <bullet>  Hilal Mamedov, editor of ``Tolishi Sado'' newspaper, on 
charges of drug possession, high treason and incitement of hatred.

    I hope the above information will be useful for your important 
work. My Office stands ready to provide further support to the 
Commission and I look forward to continuing our co-operation.
    Availing myself of this opportunity, please accept, Excellency, the 
assurances of my highest consideration.

        Dunja Mijatovic

CC: H.E. Ambassador Daniel Baer
Permanent Representative
United States Mission to the OSCE

                                 [all]
  
  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre></body></html>
